la

Appendix-A

(App. A)

USCA Case #17-5290Document #1783157Filed:
04/16/2019Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 17-5290 September Term, 2018
l:16-cv-00398-JEB
Filed On: April 16, 2019
Qihui Huang,
Appellant
v.

Ajit Varadaraj Pai, Chairman of Federal
Communications Commission (FCC), et al.,
Appellees
BEFORE: Garland, Chief Judge, and Henderson,
Rogers, Tatel, Griffith, Srinivasan, Millett, Pillard,
Wilkins, Katsas, and Rao, Circuit Judges
ORDER
Upon consideration of the petition for rehearing en
banc, and the absence of a request by any member of
the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:/s/
Ken Meadows Deputy Clerk

2a

Appendix B
(App. B)
USCA Case #17-5290 Document #1771030 Filed:
01/30/2019 Page 1 of 3
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 17-5290 September Term, 2018
l:16-cv-00398-JEB
Filed On: January 30, 2019
Qihui Huang,
Appellant
v.
Ajit Varadaraj Pai, Chairman of Federal
Communications Commission (FCC), et al.,
Appellees
BEFORE: Henderson, Rogers, and Wilkins,
Circuit Judges
ORDER
Upon consideration of the motions for summary
reversal, the response, the reply, and the
supplements thereto; appellees’ motion for summary
affirmance and the response thereto; the motion to
refer for criminal prosecution and the supplement
thereto; the motion for jury trial and the
supplement thereto; the motion for leave to seek
damages under Bivens v. Six Unknown Named
Agents of the Fed. Bureau of Narcotics, 403 U.S. 388
(1971), and the supplement thereto; the motion for
stay, which is construed as a motion to defer
consideration of certain claims, and the supplement
brief
and
appellant’s
thereto;

3a ;

and
appellant’s remaining
appendix;
submissions, \yhich are construed as supplements to
the motions for summary reversal, it is
ORDERED that the motion for summary affirmance
be granted and the motion for summary reversal be
denied. The merits of the parties’ positions are so
clear as to warrant summary action. See Taxpayers
Watchdog, Inc. v. Stanley, 819 F.2d 294, 297
(D.C. Cir. 1987) (per curiam). The district court
properly dismissed for lack of jurisdiction
appellant’s
claims
against
her
individual
supervisors. See Jarrell v. U.S. Post Office, 753 F.2d
1088, 1091 (D.C. Cir. 1985) (“the head of the agency
is the only proper defendant in a Title VII action”).
Dismissal of appellant’s claims arising under
criminal law and her request for criminal
punishment of the appellees was also proper
because appellant lacks standing to enforce the
criminal law. See Linda R.S. v. Richard D., 410 U.S.
614, 619 (1973).
The district court construed appellant’s claim of
discrimination based on appellees’ failure to transfer
her to a new management team as arising under the
USCA Case #17-5290 Document #1771030 Filed:
01/30/2019 Page 2 of 3
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 17-5290 September Term, 2018
Rehabilitation Act and properly dismissed that
claim for lack of jurisdiction because appellant failed
to exhaust her administrative remedies. See Spinelli
v. Goss, 446 F.3d 159, 162

r-

4a'

court also correctly
(D.C. Cir. 2006). The
dismissed for failure to state a claim appellant’s
claims of discrimination and retaliation arising from
her supervisor’s responses to a draft report she
prepared, the failing rating on her performance
review, the requirement of additional documents in
support of her request for sick leave, and her
placement on a Performance Improvement Plan. See
Stewart v. Ashcroft, 352 F.3d 422, 426 (D.C. Cir.
2003) (to state a Title VII claim, a “plaintiff bears
the burden of showing tangible employment action
evidenced by firing, failing to promote, a
considerable change in benefits, or reassignment
with significantly different responsibilities”).
Dismissal of appellant’s claims of hostile work
environment and constructive termination was also
proper. See Baloch v. Kempthorne, 550 F.3d 1191,
1201 (D.C. Cir. 2008) (a plaintiff alleging hostile
work environment “must show that his employer
subjected him to ‘discriminatory intimidation,
ridicule, and insult’ that is ‘sufficiently severe or
pervasive to alter the conditions of the victim’s
employment and create an abusive working
environment.’”) (quoting Harris v. Forklift Sys., Inc.,
510 U.S. 17, 21 (1993)) (additional citations
omitted); Steele v. Schafer, 535 F.3d 689, 694-95
(D.C. Cir. 2008) (conduct giving rise to a
constructive termination claim must be even more
severe than what is required for a hostile work
environment claim).

5a

granted
The
district
court
properly
summary judgment for appellees on appellant’s
claim arising from the denial of her in-grade pay
step increase. While the failure to exhaust that
claim could be excused on equitable grounds, see
Nat’l R.R. Passenger Corp. v. Morgan, 536 U.S. lOl,
113 (2002), appellant has shown no error in the
district court’s conclusion that she abandoned her
claim. Further, the district court correctly held that
appellant failed to raise a material issue of disputed
fact that appellee's legitimate, non-discriminatory
reasons for denying appellant’s pay step increase
were pretextual and that appellees discriminated
against her. See, e.g., Brady v. Office of the Sergeant
at Arms, 520 F.3d 490, 496 (D.C. Cir. 2008). It is
FURTHER ORDERED that the motion to refer for
criminal prosecution, the motion for jury trial, and
the motion to defer consideration be denied.
Appellant has shown no entitlement to the
requested relief. It is
FURTHER ORDERED that the motion for leave to
seek Bivens damages be denied. See Brown v. GSA,
425 U.S. 820, 835 (1976) (Title VII “provides the
exclusive
judicial
remedy
for
claims
of
discrimination in federal employment”).
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to
withhold issuance of the mandate herein until seven
days after resolution
Page 2
USCA Case #17-5290 Document #1771030 Filed:
01/30/2019 Page 3 of 3
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

6a

No. 17-5290 September Term, 2018
of any timely petition for rehearing or petition for
rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam
Page 3

7a

Appendix - C (App-C)
Case l:16-cv-00398-JEB
10/19/16 Page 1 of 1

Document

23 - Filed

UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
QIHUI HUANG,
Plaintiff,
Civil Action No. 16-398 (JEB)
v.
TOM WHEELER, Chairman, Federal
Communications Commission,
Defendant.
ORDER
For the reasons set forth in the accompanying
Memorandum Opinion, the Court ORDERS that:
1) Defendant’s Motion to Dismiss is GRANTED IN
PART and DENIED IN PART;
2) The Case is DISMISSED except for Plaintiffs
claims regarding the 2015 denial of her within-grade
step increase; and
3) Defendant shall file its Answer by November 2,
2016.
SO ORDERED.
Date: October 19, 2016
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge

8a

Appendix - D (App-D)
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 1 of 21
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
QIHUI HUANG,
Plaintiff,
Civil Action No. 16-398 (JEB)
v.
TOM WHEELER, Chairman, Federal
Communications Commission,
Defendant.
MEMORANDUM OPINION
Some people have experienced the daily struggle of
toiling under a supervisor who makes their blood
boil. Plaintiff Qihui Huang - who worked as an
electronics engineer at the Federal Communications
Commission - asserts that she suffered a more
literal form of this metaphorical malady. According
to Huang, her supervisors at the FCC treated her so
unfairly that the mere mention of their names
caused her high blood pressure to
rise to near-fatal heights. She thus brings this pro
se action against her supervisors and the FCC,
alleging that they created a hostile work
environment, and discriminated and retaliated
against her in violation of numerous federal and
state laws. The FCC now files a Motion to Dismiss,
contending that all of the claims in her Amended
Complaint suffer from terminal defects. As the
Court largely agrees with the agency’s
assessment, it will grant the Motion for
the most part.

9a.

I. Background
.
The Court, as it must at this stage, draws the facts
from Plaintiffs Complaints and her
Opposition to the Motion to Dismiss. See Brown v.
Whole Foods Market Gr., Inc., 789 F.3d 146, 152
(D.C. Cir. 2015) (holding district court must consider
all pro se litigant’s allegations
1
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 2 of 21
when considering a motion to dismiss, including
those found in plaintiffs opposition). It notes that
Huang has not made this an easy task, however,
bepause her pleadings contain only vague and
cursory factual allegations. Where she does allege
facts, for example, they mostly lack dates and
critical details. The Court nevertheless attempts, as
best it can, to describe the facts she has provided in
the light most favorable to her.
Plaintiff is an Asian-American sexagenarian with
two advanced degrees in electrical engineering
and physics. See ECF No. 17 (Opposition) at 24. Her
work has even contributed to a Nobel Prize in
physics. Id. In 1991, she joined the FCC as a
computer specialist. Id. at 19. During her long and
successful career at the agency, she amassed several
performance awards and was repeatedly

'A. v

10a

job
through
competitive
promoted
postings. Id. Huang eventually reached the GS-15
level as a senior electronics engineer in the FCC’s
Office of Engineering Technology in 2004 and, over
the next decade, continued to receive praise in that
role from two different supervisors as she rose to a
GS-15, Step 7 pay grade. Id. at 19-20; ECF No. 1
(Complaint) at 9.
Her smooth sailing at the agency ran into a squall,
however, in 2014. In April of that year, her
supervisor, Robert Weller, asked her to write a
report on “wireless microphones systems in the U.S.
market.” Compl. at 2. Huang strove diligently on the
task over the summer. Id. Weller left the agency in
July 2014 without having commented on her work.
See Opp. at 2021. His replacement as Branch Chief, Martin
Doczkat, requested the report shortly thereafter and
gave it back to her several weeks later with 83
comments attached. Id. at 21-22. Huang was
shocked by the extensive nature of these comments
and an accompanying email indicating that, as a
GS-15, she “should know” certain facts that she had
not included in the report. Id. She subsequently
demanded that Dozckat clarify both whether he
believed that she was unqualified for
her GS-15 position and whether she should
take his comments to mean that she had
2

Case l:16-cv-00398-JEB Document 24
10/19/16 Page 3 of 21

Filed

11a

performed the task
poorly. Id. Considering
his subsequent silence an admission to both, Huang
simmered under what she believed was the
unjustified nature of these critiques, given that she
had merely been following the instructions provided
to her by Weller in crafting the report. Id. at 22-23.
Huang’s health deteriorated under the weight of
this criticism from her supervisor. Id. at 27. She
became afraid of Dozckat and her Division Chief,
Walter Johnson. Id. When either of the men
contacted (or suggested they might contact) her at
work, her blood pressure would rise to dangerously
high levels, putting her in fear for her life. Id.
Huang sought relief in two ways. She first asked for
help from a nurse at the FCC, who recommended
that she request a supervisor swap before her
hypertension did her in. Id. Then, on October 20,
2014, Huang pursued counseling at the agency’s
Equal Employment Opportunity office, claiming
that Doczkat’s comments on her report were
discriminatory and created a hostile working
environment. See ECF No. 14 (Motion to Dismiss) at
3.
A month later, in November 2014,
Doczkat gave Huang a failing grade on her midterm
performance review. See Opp. at 26. She
immediately responded by calling for a meeting with
her union representative. Id. At that meeting,
Doczkat represented that he had given her the poor
rating due to her failure, among other things, to
complete required trainings that she
now claims she had in fact completed. Id.
Frustrated, Huang quickly initiated EEO counseling
in regard to this review and also filed a formal EEO

12a

complaint on December
discrimination
19, 2014,
alleging that Dockzat’s earlier negative comments
on her report were motivated by discriminatory
animus and created a hostile working environment.
See Mot. at 3.
Huang’s health continued its decline that winter,
however, and, in early 2015, she was forced to
request medical leave to deal with her hypertension.
Id. Before approving her request,
3

Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 4 of 21
Doczkat asked that she provide additional medical
verification of her condition. Id. This demand, too,
caused Huang’s blood pressure to spike to
dangerously high levels, and so she warned him that
she would file another complaint with the EEO
office if he did not grant her request. See Opp. at 27.
She nevertheless provided the requested paperwork,
and Dozckat retroactively granted the
medical leave as promised. Id.; Compl. at 4 (noting
she was out on sick leave from early February 2015
through August 2015); Mot. at 22-23. He also
periodically approved her requests for sick leave for
the next six months. See Mot. at 22-23. In February
2015, however, he did not approve Huang’s
scheduled increase to a new pay step within the GS15 band. See Opp. at 27.
Huang finally returned to work in August 2015. Id.
At that time, she submitted a formal request to the
FCC’s Office of Workplace Diversity for a

13a

transfer to another
management team as a
reasonable accommodation for her high blood
pressure. See Opp. at 12. She asserted that she
would die from her condition if the agency forced her
to continue to interact with Johnson and Dozckat.
See ECF No. 14, Exh. D (Letter from the Office of
Workplace Diversity) at 1. According to Huang, by
this time, even the mention of their names caused
her blood pressure to spike to near-fatal levels. Id.
She also attached two letters from her long-term
doctor discussing her history of severe hypertension,
as well as similar statements from two nurses and
an acupuncturist. Id. at 2-3. The OWD denied the
request, though, because she “refused to participate
in identifying modifications or adjustments that
would be effective” at accommodating her disability,
such as allowing an intermediary to pass assigned
work to her. Id. at 4-5; Am. Compl., 1f1f 5, 8.
Around this time, the agency also placed Huang on
a Performance Improyement Plan. See Am. Compl.,
| 9. A PIP “precedes the proposal of a reduction in
grade or removal for
4
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 5 of 21
unacceptable performance, and an
employee has not less than thirty calendar days to
demonstrate acceptable performance pursuant to
her supervisor’s identification of the core
competency for which performance is unacceptable.”
Mot. at 23 n.13 (quotation marks omitted). In
Huang’s case, she was given 90 days to improve her
performance or face termination. See Am. Compl.,

14a

f 9. Huang decided
instead to retire in
January 2016 at the age of 64. Id. at 9-10; Mot. at 2.
Before doing so, however, she sought to complain to
the OWD about several of the latter actions taken
against her - e.g., the PIP and the initial denial of
sick leave - but she received no response from that
office and never filed a formal EEO complaint in
regard to these grievances. See Opp. at 10-11 n.9.
Huang did, however, file, this federal lawsuit on
February 29, 2016, against the FCC, Doczkat,
and Johnson, alleging that they had discriminated
against her on the basis of her age, sex, national
origin, and disability. See ECF No. 1 (Complaint).
After seeking leave for an extension of
time to file a response, the FCC moved to dismiss
that Complaint on June 6, 2016. See ECF No. 8. The
Court denied that motion without prejudice when it
granted Huang’s subsequent motion for leave to
“amend or correct her complaint
by adding counts (claims).” See Am. Compl.;
6/30/2016 Minute Order. Now read together with
her original Complaint, Huang’s Amended
Complaint asserts numerous counts of
discrimination and/or retaliation against the FCC
based on various federal and state laws, specifically:
I) the FCC discriminated against
her and created a hostile work
environment when Doczkat intimated that
she was unqualified for a GS-15 position and
performed poorly on drafting her microphone report;
II) Dozckat discriminated and retaliated against her
when he gave her a “fail” on her November 2014
midterm performance evaluation; III) Dozckat

15a

and
retaliated against her
discriminated
when he did not approve her sick leave; IV) Dozckat
and Johnson discriminated and retaliated against
her
5
Case l:16-cv-0,0398-JEB Document 24 Filed
10/19/16 Page 6 of 21
when they denied her scheduled step increase; V)
the FCC discriminated and retaliated against her
when it placed her on the PIP; VI) the FCC
discriminated against her when it did not approve
her requests for a transfer as a reasonable
accommodation for her hypertension; VII) the FCC
committed various criminal acts through its
discriminatory employment actions; VIII) the FCC
forced her to resign as a result of its discrimination;
and IX) the FCC, through all of the above actions,
created a hostile working environment. The FCC’s
Motion to Dismiss this Amended Complaint is now
ripe.
II. Legal Standard
Federal Rule of Civil Procedure 12(b)(6) provides for
the dismissal of an action where a

.r.

16a

a claim upon which
complaint fails “to state
relief can be granted.” In evaluating Defendant’s
Motion to Dismiss, the Court must “treat the
complaint’s factual allegations as true . . . and must
grant plaintiff ‘the benefit of all inferences that can
be derived from the facts alleged.’” Sparrow v.
United Air Lines, Inc., 216 F.3d 1111, 1113 (D.C.
Cir. 2000) (quoting Schuler v. United States, 617
F.2d 605, 608 (D.C. Cir. 1979)) (citation omitted);
see also Jerome Stevens Pharms., Inc. v. FDA, 402
F.3d 1249, 1250 (D.C. Cir. 2005). The pleading rules
are “not meant to impose a great burden upon a
plaintiff,” Dura Pharm., Inc. v. Broudo, 544 U.S.
336, 347 (2005), and she must thus be given every
favorable inference that may be drawn from the
allegations of fact. Bell Atl. Corp. v. Twombly, 550
U.S. 544, 584 (2007).
Although “detailed factual allegations” are not
necessary to withstand a Rule 12(b)(6) motion, id. at
555, “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. at
570). The Court need not accept as true, then, “a
legal conclusion couched as a factual allegation,” nor
an inference unsupported by the facts set forth in
6
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 7 of 21
the Complaint. Trudeau v. Fed. Trade Comm’n, 456
F.3d 178, 193 (D.C. Cir. 2006) (quoting Papasan

17a

286 (1986) (internal
v, Allain, 478 U.S. 265,
quotation marks omitted)). For a plaintiff to survive
a 12(b)(6) motion even if “recovery is very remote
and unlikely,” the facts alleged in the complaint
“must be enough to raise a right to relief above the
speculative level.” Twombly, 550 U.S. at 555-56
(citing Scheuer v. Rhodes, 416 U.S. 232, 236 (1974)).
While pro se pleadings are held to “less stringent
standards than formal pleadings drafted by lawyers,
[they] must nonetheless plead factual matter that
permits [the Court] to infer more than the mere
possibility of misconduct.” Brown, 789 F. 3d at 150
(internal quotations and citations omitted).
The standard to survive a motion to dismiss under
Rule 12(b)(1), though, is less forgiving. Under this
Rule, Plaintiff bears the burden of proving that the
Court has subject-matter jurisdiction to hear her
claims. See Lujan v. Defenders of Wildlife, 504 U.S.
555, 561 (1992); U.S. Ecology, Inc. v. U.S. Dep’t of
Interior, 231 F.3d 20, 24 (D.C. Cir. 2000). A court
also has an “affirmative obligation to ensure that it
is acting within the scope of its jurisdictional
authority.” Grand Lodge of Fraternal Order of Police
v. Ashcroft, 185 F. Supp. 2d 9, 13 (D.D.C. 2001). For
this reason, “‘the [p]laintiffs factual allegations in
the complaint . . . will bear closer scrutiny in
resolving a 12(b)(1) motion’ than in resolving a
12(b)(6) motion for failure to state a claim.” Id. at
13-14 (quoting 5A Charles A. Wright & Arthur R.
Miller, Federal Practice and Procedure § 1350 (2d
ed. 1987) (alteration in original)). Additionally,
unlike with a motion to dismiss under
Rule 12(b)(6), the Court “may consider materials
outside the pleadings in deciding whether

18a

dismiss for lack of
to grant a motion to
jurisdiction.” Jerome Stevens, 402 F.3d at 1253; see
also Venetian Casino Resort, L.L.C. v. E.E.O.C., 409
F.3d 359, 366 (D.C. Cir. 2005) (“given the present
posture of this case - a dismissal under Rule
12(b)(1) on ripeness grounds - the court may
consider materials outside the pleadings”).
7

Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 8 of 21
IILAnalysis
In considering Defendant’s Motion to Dismiss, the
Court first briefly discusses Plaintiffs
claims that must be dismissed under Rule 12(b)(1)
for threshold jurisdictional defects. It then moves on
to separately address what remains of Huang’s suit
under Rule 12(b)(6)’s more lenient pro se standard,
taking each count in turn. In this analysis, the
Court treats Huang’s initial Complaint, her Motion
to Amend that Complaint, and all of the factual
statements found in her Opposition to the Motion to
Dismiss as covered under the umbrella of her
Amended Complaint.
A. Jurisdictional Defects (Counts VI and VII)
The Court need not spill much ink over two of
Huang’s claims, as they suffer from basic
jurisdictional defects. First, to the extent that her
Amended Complaint seeks to assert criminal

19a

charges in Paragraph 4
(Count
VI),
under
either state or federal law, she lacks standing to
bring these causes of action. See Linda R.S. v.
Richard D., 410 U.S. 614, 619 (1973) (holding “a
private citizen lacks a judicially cognizable interest
in the prosecution or nonprosecution of another”).
Huang also may not pursue her federal
employment-discrimination claims against Johnson
and Dockzat as individuals. See, e.g., Jarrell v. U.S.
Postal Serv., 753 F.2d 1088, 1091 (D.C. Cir. 1985)
(“[T]he head of the agency is the only proper party
defendant in a Title VII action.”). The sole
appropriate Defendant in this action is the
Chairman of the FCC, Tom Wheeler, who is tasked
with defending the agency under the relevant
employment-discrimination laws. See id. The Court,
accordingly, must dismiss all of Plaintiff s claims as
asserted against Doczkat and Johnson.
The same fate befalls the claims found in
Paragraphs 5 and 8 of her Motion to Amend (Count
VII). In these portions of the Amended Complaint,
Huang alleges that the FCC discriminated against
her under the Americans with Disabilities Act when
it refused her
8

Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 9 of 21
hypertension-based requests to transfer to a
different chain of command. See Am. Compl.,
5,
8. But the relevant provisions of the ADA do not
apply to federal agencies like the FCC. See
Calero-Cerezo v. U.S. Dep’t of Justice, 355 F.3d 6, 11
n.l (1st Cir. 2004) (explaining that “the
ADA is not available to federal employees”).

20a

Her
disability-related
claims instead arise
under the Rehabilitation Act. Id. As such, this Court
has subject-matter jurisdiction over them only if she
first exhausted her administrative remedies with
regard to the denial of this request for an
accommodation. See Spinelli v. Goss, 446 F.3d 159,
162 (D.C. Cir. 2006) (explaining that Rehabilitation
“Act limits judicial review to employees ‘aggrieved
by the final disposition’ of their administrative
‘complaint’”) (citing 29 U.S.C § 794a(a)(l)); Mahoney
v. Donovan, 824 F. Supp. 2d 49, 58 (D.D.C. 2011)
(failure to exhaust administrative remedies for
Rehabilitation Act claim is jurisdictional defect).
The FCC points out that Huang has not alleged that
she exhausted such remedies, and she readily
admits that she failed to pursue any formal
complaint with the EEOC or MSPB in regard to her
request for a transfer. See Opp. at 10-11 n.9. While
she nevertheless asks this Court to excuse her
failure, the jurisdictional nature of this requirement
prevents such an exception. See Spinelli, 446 F.3d at
162. This disability-related count must therefore be
dismissed as well.
B. Report Comments (Count I)
In her first count, Huang alleges that
Dozckat discriminated against her and created
a hostile working environment when he provided
negative comments on her 2014 report. See Compl.
at 2. She is particularly unhappy about an email he
sent, which insinuated that she was not qualified for
her job and that she had performed the task poorly.
Id. at 2-4; Opp. at 22. In essence, Huang
argues that an inference can be drawn that the
substantive comments on the report were motivated

21a

by
discriminatory
animus because: •1)
Doczkat failed to recognize the role
9
Case l:16-cv-0t0398-JEB Document 24 Filed
10/19/16 Page 10 of 21
played by her former supervisor in crafting the
report’s content; 2) Doczkat was less qualified than
she was to be a GS-15; and 3) previous supervisors
gave her performance awards for over a decade
before Dozckat criticized her work. See Compl. at 2.
Huang finds further support for her claim in
Dozckat’s failure to assign someone else to work on
the report while she was out on sick leave and in
Weller’s original decision to assign her the report
since most of her work came directly from Congress
or the FCC Chairman. Id. at 3-4. The
latter allegation is somewhat confusing, of course,
given that Huang does not otherwise allege that
Weller discriminated against her in any way during
his time at the agency. She nevertheless
seems to assert that these facts indicate that her
supervisors concocted the report as a made-up
assignment to find fault with her performance on
the task. Id. at 4.
This count, as the FCC correctly argues, fails to
state either a viable discrimination or hostile-workenvironment claim. For the former, a plaintiff must
allege that she suffered an adverse employment
action because of her race, color, religion, sex,
national origin, age, or disability. See Baloch v.
Kempthorne, 550 F.3d 1191, 1196 (D.C. Cir. 2008)
(laying out basic elements of discrimination
claim under Title VII, ADEA, and

22a

Rehabilitation Act). The
alleged
employment
action must be “tangible” as evidenced by “firing,
faibng to promote, a considerable change in benefits,
or reassignment with significantly different
responsibilities.” Stewart v. Ashcroft, 352 F.3d 422,
426 (D.C. Cir. 2003) (citations and quotation marks
omitted). Huang never alleges, however, that
Dozckat’s negative comments affected her
employment in any such tangible way. Taylor v.
Small, 350 F.3d 1286, 1292-93 (D.C. Cir. 2003)
(“[FJormal criticism” is not actionable adverse action
unless it “affect[s] the [employee’s] grade or
salary”). At best, she complains only that she found
the insinuation that she was unqualified for her job
offensive and unfair. But a “bruised ego will not
suffice to make an employment action adverse.”
Stewart,
10
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 11 of 21
352 F.3d at 426 (quoting Stewart v. Ashcroft, 211 F.
Supp. 2d 166, 173 (D.D.C. 2002)). Without more,
then, Huang has not stated a viable discrimination
claim on the basis of Doczkat’s comments and
conclusions alone.
This count likewise falls well shy of establishing a
hostile work environment. The Supreme Court has
held that federal antidiscrimination laws make it
unlawful for an employer to “requir[e] people to

23a

discriminatorily hostile
a
m
work
or abusive environment.” Harris v. Forklift Sys •)
Inc., 510 U.S. 17, 21 (1993). To prevail on such a
claim, however, “a plaintiff must show that his
employer subjected him to ‘discriminatory
intimidation, ridicule, and insult’ that is ‘sufficiently
severe or peryasive to alter the conditions of the
victim’s employment and create an abusive working
environment.’” Baloch, 550 F.3d at 1201 (quoting
Harris, 510 U.S. at 21). “The Supreme Court has
made it clear that [such] ‘conduct must be extreme
to amount to a change in the terms and conditions of
employment.’” George v. Leavitt, 407 F.3d 405, 416
(D.C. Cir. 2005) (quoting Faragher v. City of Boca
Raton, 524 U.S. 775, 788 (1998)). By adhering to
these standards, the Court “ensure[s] that Title VII
does not become a general civility code” requiring
courts to police “the ordinary tribulations of the
workplace.” Faragher, 524 U.S. at 788 (citation and
internal quotation marks omitted).
It is plain that Huang alleges no more than the
ordinary tribulations of the workplace in this count.
She makes no attempt to characterize Dozckat’s
comments as objectively severe, offensive, abusive,
or even repeated, much less pervasive.
Huang does not contend, for example, that the
comments picked on (or even mentioned) her age,
race, sex, disability, or national origin. Nor does she
argue that Dozckat repeatedly ridiculed or taunted
her with these comments. In fact, her Amended
Complaint states that Dozckat refused to further
discuss his editing of the report and, instead,
remained silent when she asked him whether the
comments indicated that she

24a

11
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 12 of 21
was unqualified for her job. See Compl. at 3-5. On
these facts, then, Huang has not sufficiently pled a
hostile-work-environment claim. The Court must,
accordingly, dismiss this count.
C. Midterm Performance Evaluation (Count II)
In her next count, Huang alleges that Dozckat
discriminated and retaliated against her when he
gave her a “fail” on her 2014 midterm performance
evaluation. See Compl. at 6. To support this claim,
Huang states that she never received a failing grade
in her previous decade in that position or in the 23
years that she otherwise served at the agency. Id. It
is understandable, then, that this reversal of
fortunes must have come as quite a blow.
As explained above, however, to establish a viable
claim for discrimination, Huang must do more than
point to the subjective impact that this evaluation
had on her. She must also plead that the poor
review had a tangible effect on the terms or
conditions of her employment.
Stewart, 352 F.3d at 426. Under this standard, “poor
performance evaluations are” not actionable adverse
actions unless they “affectQ the [employee’s] grade
or salary.” Taylor, 350 F.3d at 1293; Russell v.
Principi, 257 F.3d 815, 819 (D.C. Cir. 2001)
(recognizing performance evaluations are
likely to be interlocutory or mediate decisions
having no immediate effect upon employment).
Huang makes no claim that this midterm evaluation

25a

fact, she does not object
had such an effect. In
to the FCC’s description of this evaluation as merely
a preliminary review. As such, the Court has no
grounds upon which to conclude that this evaluation
tangibly affected the terms or conditions of her
employment, and she has thus not sufficiently
stated a discrimination claim.
Huang similarly fails to plead a viable retaliation
claim on this count. To do so, she must assert that
she suffered a materially adverse action because she
brought or threatened to bring a discrimination
claim. See, e.g., 42 U.S.C. § 2000e-3(a). While the
“‘adverse action’ [element]
12
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 13 of 21
in the retaliation context encompass a broader
sweep of actions than those in a pure discrimination
claim,” Huang must nevertheless
plead an adverse action that would have “dissuaded
a reasonable worker from making or
supporting a charge of discrimination.” Baloch, 550
F.3d at 1199 n.4. A midterm performance evaluation
that has no binding effect on an employee’s salary,
bonus, leave, or other benefits does not qualify even
under this more lenient standard. Id. at 1199
(noting “performance reviews typically constitute
adverse actions only when attached to financial
harms” and holding review did not qualify as
adverse action in retaliation context
even when accompanied by other letters of
reprimand and counseling); accord Weber v. Batista,
494 F.3d 179, 185 (D.C. Cir. 2067)

26a

(holding
performance
evaluation
to
be
materially adverse where it resulted in employee’s
not receiving a cash award). As a result, the Court
will dismiss Huang’s second count as well.
D. Denial of Sick Leave Request (Count III)
Count III alleges that Dozckat discriminated and
retaliated against her when he failed to immediately
approve her request for sick leave in February 2015.
See Compl. at 8-9. While apparently conceding that
he did eventually grant the request, she maintains
that his demand for further paperwork was
unjustified because she supported her initial request
with a doctor’s notes. See Opp. at 27; Compl. at 7.
Huang, moreover, contends that she suffered an
attack of hypertension as a result of this demand,
which put her in serious jeopardy of death. Id.
Doczkat, according to her, only granted the leave
because
she
threatened to
file
another
discrimination complaint with the OWD, and he
realized then that he was in the wrong. Id.
This count, however, cannot survive for the same
reason as the last two. Sick leave that is
eventually granted - even after the imposition of
restrictions such as a demand for additional
documentation - does not constitute the sort of
adverse action necessary for a retaliation or
13
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 14 of 21
discrimination claim. Baloch, 550 F.3d at 1198
(holding imposition of sick-leave restrictions
requiring a physician to repeatedly certify the
health problem and treatment plan did not amount

27a

action for retaliation
to materially adverse
claim where leave was eventually granted). This
count gains no traction.
......
E. Denial of Step Increase (Count IV)
In her fourth count, Huang alleges that Doczkat,
Johnson, and other unnamed FCC supervisors
discriminated and retaliated against her when they
denied her automatic step-increase in February
2015. See Compl. at 9. This resulted in her receiving
a few thousand dollars less in her salary. Id. This
fact means that, unlike her other claims just
discussed, Huang has adequately supported this
count by alleging a viable adverse employment
action.
The FCC nevertheless argues that this count should
be dismissed because Huang did not file an
administrative complaint challenging this action
before seeking relief in this Court. It is axiomatic
that federal employees may file a Title VII or ADEA
action in federal court only after exhausting their
administrative remedies. Payne v. Salazar, 619 F.3d
56, 65 (D.C. Cir. 2010)
(affirming dismissal of Title VII retaliation claim for
failure to exhaust); 42 U.S.C. § 2000e-16(c) (Title
VII exhaustion requirements); 29 U.S.C. § 633a(b)(d) (ADEA exhaustion requirements). These
exhaustion requirements, however, are not
jurisdictional. Artis v. Bernanke, 630 F.3d 1031,
1034 n.4 (D.C. Cir. 2011) (citing Menominee Indian
Tribe of Wis. v. United States, 614 F.3d 519, 527
(D.C. Cir. 2010)). “Because untimely exhaustion of
[Title VII] administrative remedies is an
affirmative defense, the defendant bears the burden
of pleading and proving it,” rather than the

28a

United States, 106 F.3d
plaintiff. Bowden v.
433, 437 (D.C. Cir. 1997) (citation omitted and
emphasis added). As a result, unless the Court
transforms the Motion into one for summary
judgment, it is typically difficult for defendants to
prevail at this
14
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 15 of 21
stage. In this case, however, Huang
concedes that she did not file an
administrative complaint with regard
to this adverse action, see Opp. at 10-11, so the
Court need not resort to such a conversion to
dismiss the claim here.
Huang nevertheless protests that the exhaustion
requirement should be excused because she
complained to the OWD about other adverse actions
and attempted to complain about this action, too,
but received no response to her emails. Id. at 11-13.
She further alleges that the acting director of the
OWD treated her unfairly, and, as a result, she
could not respond to OWD emails or
communications without risking death due to her
high blood pressure. Id. Finally, she argues that she
did not need to exhaust her administrative remedies
here because exhaustion is not required for claims
brought under Section 1981 or Section 1983. Id. at
13-14 (citing 42 U.S.C. §§ 1981, 1983).

29a

are
Most
of
Huang’s
arguments
insufficient as a matter of law to excuse her
admitted failure to exhaust this claim. Taking the
last one first, Section 1983 does not apply to federal
officials acting under the color of federal law. Settles
v. U.S. Parole Com’n, 429 F.3d 1098, 1104 (D.C. Cir.
2005). Section 1981 likewise provides a federal
remedy
against
discrimination
in
private
employment, Johnson v. Ry. Exp. Agency, Inc., 421
U.S. 454, 459-60 (1975) (emphasis added), and,
consequently, also does not apply to a federal agency
like the FCC. To the extent that Huang means
through her Opposition to re-plead this count under
those provisions, then, the Court must dismiss the
count under Rule 12(b)(1) for want of jurisdiction.
Settles, 429 F.3d at 1105 (explaining assertion of
Section 1983 claim against federal entity presents
jurisdictional defect going to sovereign immunity of
United States).
The Court similarly rejects Plaintiffs assertion that
her failure might be excused on the
basis of her two previous EEO
complaints that were made in regard to Doczkat’s
comments on
15
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 16 of 21
her report and the low performance evaluation. An
employee must exhaust the administrative process
for each discrete action for
which she seeks to bring a claim. National R.R.
Passenger Corp. v. Morgan, 536 U.S. 101, 113, 122
(2002); Coleman-Adebayo v. Leavitt, 326 F. Supp. 2d

30a

Martinez v. Potter, 347
132, 137 (D.D.C. 2004);
F.3d 1208, 1211 (10th Cir. 2003). The Supreme
Court in Morgan noted that “each incident of
discrimination and each retaliatory adverse
employment decision constitutes a separate
actionable ‘unlawful employment practice.’” 536 U.S.
at 114. As the court in Coleman-Adebayo further
elaborated:
The key to determining whether a claim must meet
the procedural hurdles of the exhaustion
requirement itself, or whether it can piggy-back on
another claim that has satisfied those requirements,
is whether the claim is of a “discrete” act of
discrimination or retaliation or, instead, of a hostile
work environment. “Discrete acts such as
termination, failure to promote, denial of transfer,
or refusal to hire” are individual acts that “occur” at
a fixed time. Accordingly, plaintiffs alleging such
discriminatory action must exhaust
the administrative process regardless of any
relationship that may exist between those
discrete claims and any others. 326 F. Supp. 2d at
137-38 (quoting Morgan, 536 U.S. at 114). As a
matter of law, Huang*sallegation that she filed other
EEO complaints does not state a potential avenue to
relief from theexhaustion requirement on this count.

31a

The same cannot be
said,.
however,
of
Huang’s factual recitations that appear to go to
whether the FCC’s OWD office prevented her from
filing a complaint or misled her as to what would be
required to pursue her claim in district court. See
Opp. at 10-11 n.9. Because the “filing of a timely
charge of discrimination with the EEOC is not a
jurisdictional prerequisite to suit in federal court, . .
. [it] is subject to waiver, estoppel, and equitable
tolling.” Zipes v. Trans World Airlines, Inc., 455 U.S.
385, 393 (1982). At least one Circuit has held that
an “equitable exception to the exhaustion
requirement is available when an EEOC
representative misleads the plaintiff concerning his
claim.” Josephs v. Pac. Bell, 443 F.3d 1050, 1061
(9th Cir. 2005). This
16
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 17 of 21
relief may be granted to a plaintiff who: “(1)
diligently pursued [her] claim; (2) was misinformed
or misled by the administrative agency responsible
for processing [her] charge; (3) relied in fact on the
misinformation or misrepresentations of that
agency, causing [her] to fail to exhaust [her]
administrative remedies; and (4) was acting pro se
at the time.” Id. (quoting Rodriguez v.
Airborne Express, 265 F.3d 890, 902 (9th Cir.
2001)). Whether or not Huang can ultimately meet
such a standard is more appropriately resolved at
summary judgment. For now, under the generous
pro se pleading standard, she has alleged sufficient
facts to create a plausible right to such relief, and
this count thus survives.

32a

F. Placement
on
Performance
Improvement Plan (Count V)
Huang makes only passing reference to her
placement on a PIP prior to her retirement from the
agency as another potential basis for this suit. See
Am. Compl., f 9. She does not indicate when this
occurred, nor who made the decision to place her on
the PIP. Regardless, this fact alone does not meet
the standard required for an actionable adverse
action unless it results in a change in pay or grade.
Taylor, 350 F.3d at 1293, 1296 (holding placement
on PIP did not constitute adverse employment
action as required to establish discrimination or
retaliation claim, absent evidence such conduct
caused change in grade or salary); Chowdhury v.
Bair, 604 F. Supp. 2d 90, 96 (D.D.C. 2009). Huang,
again, does not allege that the PIP resulted in such
a change. The Court, accordingly, dismisses this
claim.
G. Constructive Discharge (Count VIII)
Huang also alleges that the above actions forced her
to retire from the agency in January 2016,
several years before she intended to do so. See
Compl. at 10-11; Am. Compl., ^ 10. In essence, this
is a constructive-discharge claim. The constructivedischarge doctrine considers “an
employee’s reasonable decision to resign because of
unendurable working conditions ... to
17
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 18 of 21
[be] a formal discharge for remedial purposes.”

33a

Suders, 542 U.S. 129,
Penn. State Police v.
141 (2004). Constructive-discharge claims are
therefore designed to address situations in which
employers coerce employees to resign by creating
intolerable working conditions. Id.
To support such a claim in the discrimination
context, Huang must allege “that [she] was
discriminated against by [the FCC] to the point
where a reasonable person in [her] position would
have felt compelled to resign.” Green v. Brennan,
136 S. Ct. 1769, 1777 (2016) (describing elements for
constructive-discharge claim under Title VII). These
“ordinary”
beyond
must
conditions
go
discrimination. Perry v. Harris Chernin, Inc., 126
F.3d 1010, 1015 (7th Cir. 1997). The conduct, in fact*
must amount to more than that
required to support a hostile-work-environment
claim so that the plaintiffs resignation qualifies as a
fitting response to the discrimination. Steele v.
Schafer, 535 F.3d 689, 694-95 (D.C. Cir.
2008). In other words, in a run-of-the-mill hostile
work environment, an employee is expected
to “mitigate damages by remaining on the job unless
that job presents such an aggravated
situation that a reasonable employee
would be forced to resign.” Clark v. Marsh, 665 F.2d
1168,
1173
(D.C.
Cir.
1981)
(quotation
marks omitted). An employee’s decision to retire is
thus insufficient where driven only by
concern for the effect of the job’s normal tasks on
her health. See, e.g., Spence v. Maryland Cas.
Co., 995 F.2d 1147, 1156 (2d Cir. 1993)

r

34a

employee
develops
(“[T]he fact that an
stress-related ill health from the demands of his
voluntarily undertaken position or from criticisms of
his performance, and as a result determines that
health considerations mandate his resignation, does
not normally amount to a constructive discharge by
the employer.”)- Likewise, a failure to promote, a
change in job duties, a transfer, criticism, pressure
from a supervisor, or being ignored by co-workers
are not the sort of “aggravating factors” necessary to
support a constructive-discharge claim. Veitch v.
England, 471 F.3d 124, 131 (D.C. Cir. 2006).
18
Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 19 of 21
Suffice it to say, the allegations in Huang’s
Amended Complaint fall far short of this standard.
Even considering every factual allegation she
provides as part and parcel of this claim, she has
only asserted stress from working for a critical or
difficult supervisor. At no point does she point to an
aggravating factor sufficient to support a reasonable
employee’s decision to involuntarily retire. She
never alleges any derogatory comments made about
any of her protected characteristics. Nor does she
describe any contact from her supervisors that could
be considered as outside the ordinary contact
expected from a superior. Huang, consequently, has
not stated a viable constructive-discharge claim.
H. Hostile Work Environment (Count IX)

35a

explicitly
not
Although Plaintiff does
enumerate a hostile-work-environment count based
on the combination of the above-mentioned actions
taken against her by Johnson and Dozckat, her pro
se pleading may fairly be construed to allege such a
claim. In particular, she repeatedly asserts that her
supervisors created a hostile work environment by,
inter alia, “delivering] documents to her, talking]
to her, communicat[ing] with her, email[ing] her,
call[ing] her, knocking] her office door, forcibly
open[ing] her office door, and etc., more,” when they
knew that “their . .. actions frequently or
always caused Plaintiffs blood pressure [to]
promptly raise Q ... up to 223 mmHg.” Compl. at 67; Am. Compl. at 2-3. She thus contends that they
knowingly and willfully placed her at substantial
risk of death through these actions. Id. Because the
hostile-work-environment standard is somewhat
lower than that required for constructive
discharge, out of an abundance of caution,
the Court addresses this claim separately. Yet, even
considering in concert all of the factual allegations
made throughout the Amended Complaint, the
Court still finds the count wanting.
19
Case l:16-cv-0P398-JEB Document 24 Filed
10/19/16 Page 20 of 21
As indicated above, to establish a hostile work
environment, Huang must allege “harassing
behavior sufficiently severe or pervasive to alter the
conditions of [her] employment.” Suders, 542 U.S. at
133 (quotation marks omitted). The “discriminatory
intimidation, ridicule, and insult,”

*

36a

moreover,
must
be
“sufficiently severe or
pervasive [so as] to alter the conditions of the
victim’s employment and create an abusive working
environment.’” Baloch, 550 F.3d at 1201; George,
407 F.3d at 416 (holding conduct must be extreme).
Looking at “all the circumstances” here - including
“the frequency of the discriminatory conduct; its
severity; whether it is physically threatening or
humiliating, or a mere offensive
utterance; and whether it unreasonably
interferes with an employee's work performance” —
Dozckat and Johnson’s conduct cannot fairly be said
to state a plausible ground for relief. Morgan, 536
U.S. at 116 (quoting Harris, 510 U.S. at 23). Huang
has instead alleged only the
ordinary contact required for a supervisor to oversee
his employee. She does not point to any
inappropriate or abnormal conduct
inflicted upon her by either Johnson or Doczkat. She
offers no allegation, for example, that her
supervisors sought to increase their contact with her
to induce or aggravate her hypertension. At most,
Doczkat and Johnson may have given her
unjustified criticism on her work product and
unfairly denied her a scheduled increase in pay.
This is not the sort of conduct that is necessary to
support a hostile-work-environment claim.
20

Case l:16-cv-00398-JEB Document 24 Filed
10/19/16 Page 21 of 21
IV. Conclusion
For the reasons stated above, the Court will
dismiss all of Plaintiff s claims against Johnson

37a

dismiss all of her claims
and Doczkat. It will also
against the FCC with the sole exception being that
regarding the denial of her within-grade step
increase in February 2015. A contemporaneous
Order will issue to this effect.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: October 19, 2016

•t.
;

38a

Appendix E (App. E)
Case l:16-cv-00398-JEB Document 85 Filed 09/15/17
Page 1 of 1
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
Civil Action No. 16-398 (JEB)
ORDER
For the reasons set forth in the accompanying
Memorandum Opinion, the Court ORDERS that:
1. Defendant’s Motion for Summary Judgment is
GRANTED;
2. Plaintiffs Motion for Summary Judgment is
DENIED;
3. Plaintiffs Motion for Honorable Judge to Take
Actions Against Crimes of Defendant is DENIED;
4. Plaintiffs Motion for Jury Trial and Opposition of
Summary Judgment is DENIED;
5. Plaintiffs Motion to Also Rule Defendant
Violated 42 U.S.C. § 1981 is DENIED; and
6. Judgment is ENTERED in favor of Defendant.
SO ORDERED.
Date: September 15, 2017
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge

39a

Appendix - F (App. F)
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page •
1 of 19
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
QIHUI HUANG,
Plaintiff,
v. Civil Action No. 16-398 (JEB)
AJIT PAI, Chairman,
Federal Communications Commission,
Defendant.
MEMORANDUM OPINION
Plaintiff Qihui Huang is an “Asian American, foreign-bom”
woman over sixty years old. See ECF No. 1 (Complaint) at
1, 5. After an almost 25-year career at Defendant Federal
Communications Commission, Huang brought this pro se
suit, alleging a host of discriminatory and retaliatory actions
by her supervisors. Defendant previously filed a Motion to
Dismiss, which the Court granted except as to one claim: the
Agency’s allegedly improper denial of Huang’s within-grade
pay increase. See Huang v. Wheeler, 215 F. Supp. 3d 100,
114 (D.D.C. 2016). The parties have now filed CrossMotions for Summary Judgment on this remaining issue.
Because the Court finds that Huang did not exhaust her
administrative remedies — and would lose on the merits
even if she had — it will grant Defendant’s Motion.
I. Background
As the prior Opinion thoroughly detailed the
factual history of Plaintiffs tenure at the FCC, id. at 103106, the Court here sets forth the facts (in the light most
favorable to Huang) only as they relate to her pay-increase
denial.
1
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
2 of 19
A. Factual History

I.

40a

Huang began at the FCC in
1991 as a GS-12 computer
specialist. See Def. Opp., Exh. 1 (Response to PL Statement
of Facts), | 13. In 2004, after several promotions, she
became a GS-15 senior electronics engineer in the Technical
Analysis Branch of the Office of Engineering and
Technology. See Def. MSJ, Exh. 2 (SOF), f 2. GS-15
engineers are “considered senior expert consultants and
subject matter experts in one or more areas of engineering or
communications.” ECF No. 82 (Report of Investigation) at
203. They “conduct[] the most difficult types of technical
studies and/or direct[] special project teams on matters
pertaining to various phases of electromagnetic wave
propagation.” Id. at 215. Senior engineers, accordingly, must
“exercise[] a high degree of originality, initiative and sound
judgment.” Id.
Huang’s first ten years as a GS-15 seem to have been smooth
sailing; she received “pass” performance-review ratings
every year and even performance awards in several years.
See Def. Response to PI. SOF,
30-34. Robert Weller,
TAB Chief, was Huang’s supervisor during much of this
time. On April 21, 2014, he assigned her a wirelessmicrophone-study report, which would cause her great
difficulty. The assignment tasked Huang with “identify[ing]
current wireless microphone operating parameters and
analyzing] several spectrum options for possible use by
wireless microphones.” PI. MSJ, Exh. E at 2 (Apr. 1, 2014,
Mem. from Weller to Huang). Weller outlined nine specific
areas that she was to research and analyze and requested that
she “provide a type-written report with appropriate tables
and charts ... by May 1, 2014.” Id. Plaintiff did not submit a
first draft until July, which Weller reviewed page by page,
providing a list of areas that needed. clarification or
improvement. He noted multiple “formatting[,] ... spelling
and grammar errors,” and he also had concerns regarding
Huang’s analysis. Id. at 6. At some point, she submitted
another draft, which Weller noted was “an

41a

2

Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
3 of 19
improvement.” Id. at 4. He observed, however, that several
areas still needed additional shoring up, including incorrect
calculations and “gaps and inconsistencies in the data.” Id. at
5. Huang had not completed the report by the time Weller
left the Agency in late July 2014.
When Weller departed, it appears he took the wind in
Huang’s sails with him. Martin Doczkat, also a GS-15 senior
engineer, became the new TAB Chief, and Huang sent him
what she deemed the final version of the report on August
26, 2014. See ROI at 236. Like Weller, Doczkat was not
satisfied with the report, but he was more direct in his
criticism. On September 11, 2014, he returned the 31-page
draft report to Huang with 83 comments. Id. at 40-70. In
addition to critiquing the “numerous typos, some quantitative
errors, lack of citations[, and] copyright issues,” id. at 179,
Doczkat noted that the report was incomplete “in that it
seems to overlook many of the tasks initially assigned by”
Weller. Id. at 235. He further noted that, “[a]s a GS-15
electronics engineer,” Huang was “expected to . . . conduct
difficult and highly complex technical analyses” as well as
“conduct original studies,” Id. The draft report, by contrast,
used simple models that appeared to have been copied from
Wikipedia and heavily relied on other data sources without
adjusting them to fit the task. The original May 1, 2014,
deadline had “far since passed,” but Doczkat encouraged
Huang to “keep at it, as there may be other opportunities in
the future if th[e] paper can be sufficiently improved.” Id. He
suggested an extended deadline one month in the future for
Huang to complete her revisions and submit a final report
and offered to meet with her “separately on a weekly basis if
that may be helpful to work to a more complete and original
quality work product.” Id.

•t

42a

forth about the project
The two emailed back and
through the end of September with reasonable civility.
Shortly thereafter, however, the ship ran aground. Doczkat
emailed Huang on October 2,2014, in an attempt to schedule
a meeting to discuss her progress, to which she
3
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
4 of 19
replied that she preferred to communicate through email
rather than meet face to face. Id. at 262-63. Huang then
responded to each of Doczkat’s 83 comments and asked that
he respond to her notes. Without that feedback, she told him,
she was unable to work on the study. Id. at 284, 287.
Although Doczkat again reiterated his offer to discuss the
project with her in advance of the fast-approaching deadline,
id. at 283, communication between the two ceased, and
Huang never submitted another draft of the report. See PL
Opp., Exh. 1 (Opp. to Def. SOF), ^ 26.
On November 20, Huang had a midterm-progress-review
meeting with Doczkat’s boss, Walter Johnston. (Johnston
would not normally conduct these reviews, but Huang
refused to meet with Doczkat in person.) In written follow­
up comments provided to her after the meeting, Johnston
“reminded [her] that as a GS-15 engineer [she is] expected to
work with minimal supervision on complex engineering
matters,” and her submitted work product should be
acceptable “with minimum modifications.” ROI at 222. In
addition to the never-completed wireless-microphone-study
report, Johnston also evaluated her refusal to work on an
additional assignment involving a TV study. Id. at 162.
Based on those two reports — Plaintiffs only assignments
during the review period — Johnston concluded that her
“work was not accomplished in an effective or efficient
manner.” Id. at 226. He warned Huang that her work over
the last 90 days did “not me[e]t our expectations for work
performance at [her] grade level” and gave her 90 days

43a

was critical for Plaintiff to
to improve. Id. at 228. It
meet her performance expectations .during this period
because she would be eligible on February 26, 2015, for a
within- grade step increase from GS-15, Step 7 to GS-15,
Step 8 only if her performance was “at an acceptable level of
competence.” Def. MSJ, Exh. E (Basic Negotiated
Agreement) at 58. In other words, she needed to receive a
“pass” level on her performance-rating form. On December
5, 2014, Doczkat sent Huang a notice that it was possible she
would not receive a pass rating.
4

Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
5 of 19
The notice outlined the areas in which he felt she was
deficient and concluded that at that time her “overall
performance [wa]s not at the Pass level.” Id. at 8. On January
29, 2015, Plaintiff received a “fail” rating for that period. See
ROI at 221. As such, she did not receive her within- grade
pay increase when she became eligible in February.
B. Procedural History
Based on Doczkat’s September 11, 2014, comments on the
report, Plaintiff made an informal Equal Employment
Opportunity complaint on October 23, 2014, alleging that
her supervisors had “intentionally discriminated against [her]
based on [her] race, sex, national origin, age, and/or color”
by describing her work as not representative of a GS-15. See
ROI at 28. The FCC EEO counselor provided Huang with a
notice of right to file a discrimination complaint on
December 18, 2014, and she filed her formal complaint the
next day. Id. at 3. On February 4, 2015, Plaintiff filed a
second complaint, alleging that the Agency had retaliated by
denying her sick leave and giving her a fail rating.
On March 30, 2015, Huang emailed the FCC’s Office of
Workplace Diversity manager Linda Miller to file a new
complaint. See Def. MSJ, Exh. H at 28. In this third
complaint, she asked to add a claim that she did not receive

a

? • *

44a

her step-up increase in
February
because
of
discrimination and/or retaliation. Miller did not reply to the
email. At the beginning of September 2015, however,
Plaintiff and Katherine Bankhead, the EEO investigator
assigned to her case, communicated about the first two
complaints via email. Huang tried again to add her payincrease denial and other claims, but Bankhead told her that
she needed to contact Miller to amend her complaint. See
ROI at 349. Huang then replied that she did not want to
amend her complaint, to which Bankhead confirmed that
“the additional issues [she] raised will not be investigated,”
including her within-grade-increase denial. See ROI at 347.
As such, the EEO
5

Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
6 of 19
investigated three issues relating to the alleged
discrimination against Plaintiff: (1) Doczkat’s comments that
her work product did not meet the standards of a GS-15
engineer; (2) the January 29, 2015, fail rating; and (3) the
denial of her sick-leave request. The EEOC completed the
ROI, and Huang accepted the record on December 1, 2015.
See ECF No. 84 (Final Agency Decision) at 2.
In lieu of amending her complaint to include the step-up payincrease claim in her ongoing EEO complaint, Huang filed a
grievance through her Union’s negotiated grievance process.
On September 17, 2015, she requested that the Agency
rescind her fail rating and award her a GS-15, Step 8 salary.
See Def. MSJ, Exh. F (Step 1 Grievance Decision). The
grievance was denied on October 19, 2015, and Huang did
not administratively appeal. Id. at 6.
Plaintiff next filed this civil action on February 26, 2016,
alleging discrimination, retaliation, and a hostile work
environment by the FCC, Doczkat, and Johnston. The
Agency, consequently, dismissed her EEO complaint. Id. at
8; 29 C.F.R. § 1614.107(a)(3) (An “agency shall dismiss an

45a

the basis of a pending civil
entire complaint... [t]hat is
action in a United States District. Court in which the
complainant is a party.”). Construing her Complaint and
Amended Complaint liberally, the Court divined nine claims
of discrimination and/or retaliation, including a count
alleging a hostile work environment. The Court first
dismissed Doczkat and Johnson as improper Defendants and
then, in a lengthy Opinion, dismissed all of her counts
against the FCC except the within-grade-increase denial.
Huang, 215 F. Supp. 3d at 114. Although Plaintiff conceded
that she had not exhausted this claim before bringing her
suit, the Court found that the count survived a motion to
dismiss because she had alleged sufficient facts showing that
her failure to exhaust could be excused under equitable
doctrines. Id. at 112. More specifically, Huang alleged that
Miller’s lack of response to the March 30 email thwarted her
attempt to add
6
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
7 of 19
the pay-increase claim. Id. at 111. The parties then
conducted discovery and have now brought Cross-Motions
for Summary Judgment on that one count.
II. Legal Standard
Summary judgment may be granted if “the movant shows
that there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a); see also Anderson v. Liberty Lobby, 477
U.S. 242, 247-48 (1986); Holcomb v. Powell, 433 F.3d 889,
895 (D.C. Cir. 2006). A fact is “material” if it is capable of
affecting the substantive outcome of the litigation. See
Liberty Lobby, 477 U.S. at 248; Holcomb, 433 F.3d at 895.
A dispute is “genuine” if the evidence is such that a
reasonable jury could return a verdict for the non-moving
party. See Scott v. Harris, 550 U.S. 372, 380 (2007);
Holcomb, 433 F.3d at 895. “A party asserting that a fact

46a

cannot be or is genuinely
disputed must support the
assertion” by “citing to particular parts of materials in the
record” or “showing that the materials cited do not establish
the absence or presence of a genuine dispute, or that an
adverse party cannot produce admissible evidence to support
the fact.” Fed. R. Civ. P. 56(c)(1).
When a motion for summary judgment is under
consideration, “[t]he evidence of the non- movant is to be
believed, and all justifiable inferences are to be drawn in his
favor.” Liberty Lobby, 477 U.S. at 255; see also Mastro v.
PEPCO, 447 F.3d 843, 850 (D.C. Cir. 2006); Aka v. Wash.
Hosp. Ctr., 156 F.3d 1284, 1288 (D.C. Cir. 1998) (en banc).
On a motion for summary judgment, the Court must “eschew
making credibility determinations or weighing the evidence.”
Czekalski v. Peters, 475 F.3d 360, 363 (D.C. Cir. 2007).
The non-moving party’s opposition, however, must consist
of more than mere unsupported allegations or denials, and
must be supported by affidavits, declarations, or other
competent evidence, setting forth specific facts showing that
there is a genuine issue for trial.
7
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
8 of 19
See Fed. R. Civ. P. 56(e); Celotex Corp. v. Catrett, 477 U.S.
317, 324 (1986). The non-movant, in other words, is required
to provide evidence that would permit a reasonable jury to
find in her favor. See Laningham v. U.S. Navy, 813 F.2d
Cir.
1987).
1241
(D.C.
1236,
III. Analysis
The Agency’s denial of Huang’s within-grade step increase
to GS-15, Step 8 is the sole count still afloat. Title VII makes
it unlawful for an employer to “discriminate against any
individual with respect to his compensation, terms,
conditions, or privileges of employment, because of such
individual’s race, color, religion, sex, or national origin,” 42
U.S.C. § 2000e- 2(a), or “because he has made a charge . . .

47a

manner in an investigation”
or participated in any
of employment discrimination. See 42 U.S.C. § 2000e-3(a).
The Age Discrimination in Employment Act adds age
discrimination to the mix. See 29 U.S.C. § 623. Plaintiff
contends that Defendant discriminated against her based on
her age, sex, race, and national origin and retaliated against
her in response to her EEO complaints. According to Huang,
because of this discrimination and retaliation, she received a
fail rating, which, in turn, was the cause of her pay- increase
denial. Defendant retorts that this claim has not been
administratively exhausted and is nonetheless meritless
because the Agency had a legitimate, non-discriminatory
reason for denying the increase. Even taking all of the facts
in the light most favorable to Huang, the Court agrees with
Defendant on both scores.
A. Exhaustion
“Before filing suit, a federal employee who believes that her
agency has discriminated against her in violation of Title VII
must first seek administrative adjudication of her claim.”
Payne v. Salazar, 619 F.3d 56, 58 (D.C. Cir. 2010) (citing
Scott v. Johanns, 409 F.3d 466, 468 (D.C. Cir. 2005)). An
FCC employee alleging discrimination can file a complaint
either through

ft

8

Case 1:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
9 of 19
the Union’s negotiated grievance procedure or through the
EEOC, “but not both.” Basic Negotiated Agreement at 115.
Whichever process the employee timely initiates first is
deemed to be her elected procedure. Id. The record is a bit
murky as to which process Huang chose, but, as explained
below, under either route her pay-increase claim is not
exhausted.
Complaint
1.
EEO
Title VII ‘“specifies with precision’ the prerequisites that a
plaintiff must satisfy before
■ ;

N

48a

Passenger Corp. v. Morgan,
filing suit.” National R.R.
536 U.S. 101, 109 (2002) (quoting Alexander v. GardnerDenver Co., 415 U.S. 36, 47 (1974)). When an employee
believes that her employer has violated Title VII, she must
first contact the agency’s EEO counselor to initiate an
informal complaint. If the counselor’s attempts at resolution
are unfruitful, the employee can lodge a formal complaint,
which must be filed within 180 days from the date on which
the alleged discriminatory act occurred. See 42 U.S.C. §
2000e-5(e)(l). “Each discrete discriminatory act starts a new
clock for filing charges alleging that act.” Morgan, 536 U.S.
at 113. The agency then investigates the claim, after which
the employee can request an administrative hearing or a
summary decision. See 29 C.F.R. § 1614.108(f). Either route
ultimately culminates in a final order, at which point the
claim is exhausted. If the employee is not satisfied with the
agency’s final decision, she can file a federal lawsuit.
Properly exhausted claims encompass those that the
complaint and its accompanying documents detail with
‘“sufficient information’ to put the agency on notice of the
claim and to ‘enable the agency to investigate’ it.” Crawford
v. Duke, No. 16-5063, 2017 WL 3443033, at *4 (D.C. Cir.
Aug. 11, 2017) (quoting Artis v. Bemanke, 630 F.3d 1031,
1034 (D.C. Cir. 2011)).
Each part of the administrative process is governed by
statutory filing deadlines. These time periods are “subject to
equitable doctrines such as tolling or estoppel,” which are to
be
9
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
10 of 19
“applied sparingly.” Morgan, 536 U.S. at 113; see Josephs v.
Pac. Bell, 443 F.3d 1050, 1061 (9th Cir. 2006) (excusing
exhaustion when EEOC representative misled plaintiff
regarding his claim); Currier v. Radio Free Europe/Radio
Liberty, Inc., 159 F.3d 1363, 1368 (D.C. Cir. 1998)

49a

employer
when
(applying equitable estoppel
affirmatively misled employee to believe that grievance
would be resolved in employee’s favor); Broom v. Caldera,
129 F. Supp. 2d 25, 26-28 (D.D.C. 2001) (excusing non­
exhaustion where administrative law judge misinformed
complainant about proper procedures); Koch v. Donaldson,
26Q F. Supp. 2d 86, 90-91 (D.D.C. 2003) (equitably tolling
filing period given EEO office’s fax-machine malfunction).
Defendants have the burden to prove a failure to exhaust, but
a plaintiff who concedes that she has not exhausted her claim
has the burden to show “facts supporting equitable avoidance
of the defense.” Bowden v. United States, 106 F.3d 433, 437
(D.C. Cir. 1997).
Huang filed two timely EEO complaints relating to 1)
Doczkat’s feedback on her wireless-microphone-study report
and 2) her January 2015 fail rating. (The second complaint
also included a claim of retaliation for denial of sick leave,
but the EEOC dismissed that claim because Huang’s leave
was ultimately approved.) She did not, however, file a
complaint regarding her pay-increase denial. Although she
admits this omission, Plaintiff argues that the Court should
nonetheless allow this claim to go forward because the
Agency’s EEO manager, Linda Miller, never responded to
Huang’s March 30, 2015, email attempting to add it to the
ongoing EEO investigation. At the motion-to-dismiss stage,
the count survived because it was unclear whether (or to
what extent) “the FCC’s [Office of Workplace Diversity]
prevented her from filing a complaint or misled her as to
what would be required to pursue her claim in district court.”
Huang, 215 F. Supp. 3d at 112. Now, with the benefit of
discovery and a more robust record, the Court finds no
equitable considerations that excuse non-exhaustion.
10
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
11 of 19

4-

50a

Although Miller did not
responded to Huang’s
email, Plaintiffs conversations with the EEO investigator,
Bankhead, show that she affirmatively decided riot to amend
her EEO complaint to add the step-increase denial. When
Bankhead told Plaintiff that she could not “add additional
issues” through her affidavit and would need to contact
Miller to amend her complaint, see ROI at 349, Huang
replied that she did not want to “amend [her] complaint at
this moment.” Id. at 347. Bankhead then confirmed that “the
additional issues [Huang] raised will not be investigated in
this complaint,” including the pay-increase denial. Id. Huang
does not address this exchange with Bankhead or argue why,
in light of it, any equitable considerations apply here.
Given such an unequivocal decision not to amend, Huang
cannot somehow maintain that her within-grade-increase
claim was “reasonably related to” exhausted claims in her
formal EEO complaint and should be considered. See Poole
v. Gov’t Printing Office, No. 16-494, 2017 WL 2912401, at
*5-6 (D.D.C. July 7, 2017) (noting that this Circuit has not
decided whether the “reasonably related” doctrine for claims
that happened after the initiation of an EEO complaint
survives Morgan). Huang’s email to Bankhead meant that
the Agency was put on notice that her within-grade-increase
denial was not at issue, and it would go against the purpose
of the exhaustion requirement to allow her to belatedly add it
now. See Loe v. Heckler, 768 F.2d 409, 417 (D.C. Cir. 1985)
(exhaustion requirements “ensure [] that the agency ha[s]
notice of [the complainant’s] grievance, and a fair
opportunity to provide full redress or to attempt an informal
accommodation”); Final Agency Decision at 2 n.4 (noting
that denial of step increase “[wa]s not before the Agency as
Complainant did not raise it in either of her complaints and it
was not raised within 45 days of the alleged incident”);
compare Coleman v. Duke, No. 15-5258,2017 WL 3480705;
at *7-8 (D.C. Cir. Aug. 15, 2017) (holding that plaintiff
exhausted retaliation

51a

11
Case l:16-cv-00398-JEB Document 8.7 Filed 09/15/17 Page ,
12 of 19
claim that was included in formal complaint but not EEOC’s
acceptance letter), with Hamilton v. Geithner, 666 F.3d
1344, 1350 (D.C. Cir. 2012) (finding that claim that was
presented to EEO counselor but never inpluded in formal
EEO complaint was not exhausted). A plaintiff who
voluntarily abandons a claim during the administrative
process cannot revive it in federal court. See Katz v. Winter,
No. 07-3481, 2008 WL 5237252, at *1 (3rd Cir. 2008);
Harris v. United States, 919 F. Supp. 343, 346 (S.D. Cal.
1996). The Court thus finds that equitable considerations do
not excuse Plaintiffs failure to exhaust.
Process
GrievanceNegotiated
2.
Evaluating Huang’s claim under the negotiated grievance
process leads to the same result. If the employee chooses this
alternative, it proceeds in three steps. See BN A at 117. First,
the employee submits the written grievance to her immediate
supervisor, who must respond within a certain timeframe. If
the employee is .dissatisfied with the outcome of Step 1, she
may appeal the grievance to the Chairman within 10 working
days. If, after Step 2, the employee is still aggrieved, she has
21 days to appeal the decision to arbitration. Id.
Huang did begin this process by filing a Step 1 grievance on
September 17, 2015. Doczkat issued a denial decision on
October 19, 2015, but Huang never appealed that decision to
the Chairman. She does not provide any explanation and thus
has no defense for her inactivity. As Plaintiff never
completed the administrative process, the Court finds that
she did not exhaust her claim, and it must be dismissed.
B. Merits
Even if the Court were to treat Plaintiffs step-increase claim
as exhausted, it nevertheless fails on the merits. For Huang,
Doczkat’s September 11, 2014, comments on her wireless-

52a

microphone-study project
are
evidence
of his
discrimination and the seed from which the pay12
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
13 of 19
increase denial sprouted. See PI. Opp. at 4. Defendant
counters that Plaintiffs fail rating was solely attributable to
her poor work performance.
Title VII prohibits an employer from both 1) directly
discriminating against an employee because of her race, sex,
color, religion, or national origin and 2) retaliating against an
employee for opposing discriminatory employment
practices. The ADEA forbids employers from discriminating
against employees over 40. See 29 U.S.C. § 623. As both
sides agree that there is no direct evidence of discrimination
or retaliation, the Court moves directly to the three-part
burden-shifting framework set forth in McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 802- 05 (1973). Under this
framework, the plaintiff carries the initial burden of
establishing a prima facie case, of discrimination. “If the
plaintiff meets this burden, ‘[t]he burden then must shift to
the
employer
to
articulate
some
legitimate,
nondiscriminatory reason’ for its action. If the employer
succeeds, then the plaintiff must ‘be afforded a fair
opportunity to show that [the employer’s] stated reason . . .
was in fact pretext’ for unlawful discrimination. ChappellJohnson v. Powell, 440 F.3d 484, 487 (D.C. Cir. 2006)
(quoting McDonnell Douglas, 411 U.S. at 802, 804). When,
however, “an employee has suffered an adverse employment
action and an employer has asserted a legitimate, non­
discriminatory reason for the decision, the district court need
not-and should not-decide whether the plaintiff actually
made out a prima facie case under McDonnell Douglas.”
Brady v. Office of Sergeant at Arms, 520 F.3d 490, 494
(D.C. Cir. 2008). The Court’s sole task in such cases is to
“resolve one central question: Has the employee produced

53a

reasonable jury to find that
sufficient evidence for a
the employer’s asserted non- discriminatory reason was not
the actual reason and that the employer intentionally
discriminated against the employee on the basis of race,
color, religion, sex, or national origin?” Id. The plaintiff
must “present[] enough evidence to allow a reasonable trier
of fact to conclude that the
13
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
14 of 19
employer’s proffered explanation is imworthy of credence.”
Desmond v. Mukasey, 530 F.3d
944, 962 (D.C. Cir. 2008) (citation and internal quotation
marks omitted). If, even crediting the employee’s evidence
as true, no reaspnable jury could find that the employer’s
legitimate, non- discriminatory reason for the decision was
pretextual, the Court must grant the Defendant summary
judgment. See Guajacq v. EDF, Inc., 601 F.3d 565, 570
(D.C. Cir. 2010).
The Agency’s denial of Huang’s within-grade increase is
undisputedly an adverse action, as she suffered a direct
diminution in pay. See Douglas v. Donovan, 559 F.3d 549,
553 (D.C. Cir. 2009). Defendant, however, proffers a simple
business reason for the denial: Plaintiffs work was
unacceptable for an engineer of her level. To support this
contention, the Agency provided her infamous wirelessmicrophone-study report draft (complete with Doczkat’s 83
comments); sworn statements from Weller, Johnston, and
Doczkat attesting to Huang’s poor performance; a GS-15
position description that details the expectations for a senior
engineer; and various formal and informal performance
reviews from 2014 and 2015 where Doczkat and Johnston
express to Huang their perceived deficiencies in her work.
See Def. MSJ, Exhs. B-H; ROI 40-70, 124-244. In response,
Plaintiff marshals evidence of her own in an attempt to show
pretext. She points out, for example, that the majority of

54a

evidence
comes from Doczkat and
Defendant’s
Johnston — the very individuals she claims are responsible
for the discrimination. Huang urges the Court instead to look
at her background and history with the FCC, and she
provides evidence of her two master’s degrees, achievement
and performance awards, personal recommendations, and all
of her previous performance evaluations from the
Commission. See PI. MSJ, Exhs. A-E. Huang correctly
points out that she never had a fail rating until Doczkat
became her supervisor, and, while Weller did provide
extensive feedback on her report, the record does not contain
any suggestion that he ever told Huang she was
underperforming.
14
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
15 of 19
At the summary-judgment stage, the Court’s role is not to
weigh the evidence or make credibility determinations but to
draw reasonable inferences in the light most favorable to the
non-moving party. See Robinson v. Pezzat, 818 F.3d 1, 9
(D.C. Cir. 2016). That is, if the parties present “directly
contradictory evidence,” the plaintiff gets the benefit of the
doubt. Tolan v. Cotton, 134 S. Ct. 1861, 1867 (2014); see
Robinson, 818 F.3d at 9. Particularly given Huang’s
background and more than 20-year satisfactory run at the
Agency, the temporal proximity of her EEO complaint and
unsatisfactory performance reviews may give a reader pause.
Jones v. Bemake, 557 F.3d 670, 680 (D.C. Cir. 2009) (“[A]n
adverse action following closely on the heels of protected
activity may in appropriate cases support an inference of
retaliation.”). The undisputed evidence, however, shows that
Plaintiff did not meet the requirements for a within- grade
increase.
To be eligible for such a salary bump, Huang must: 1)
complete the required waiting period; 2) not have received
an equivalent pay increase during the waiting period; and 3)

55a

leyel of competence . . ..as
perform “at an acceptable
documented in the most recent rating of record,” ROI at 323
— i. e., a “pass” rating. Defendant concedes that Huang met
the first two requirements; the fail rating was the only reason
it denied her pay increase. See Def. MSJ, Exh. F (Step 1
Grievance Decision) at 21.
A pass rating indicates that an FC.C employee “successfully
performed his/her duties and responsibilities in furthering the
mission and goals of the Federal Communications
Commission.” ROI at 82 (Employee Review Form). As a
GS-15 TAB engineer, Huang’s responsibilities included
originally and thoughtfully engaging with complex, highlevel electromagnetic-spectrum concepts and data. Engineers
in that role serve “as a senior expert consultant, special
project director, and advisor to the Branch Chief and to the
Division and
15
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page .
16 of 19
Deputy Chief’ on a host of radio-communication subjects.
Id. at 214 (Position Description). They conduct “the most
difficult types of technical studies” that require them to
“originat[e] and evaluate] . . . theoretical and empirical data
of electromagnetic wave propagation on all frequencies to
provide the [FCC] with basic information and technical
recommendations.” Id. at 215. GS-15 engineers, accordingly,
are expected to work “under the general supervision of the
Branch Chief’ but exercise “a high degree of originality,
initiative, and sound judgment” in fulfilling their role. Id.
No reasonable jury could conclude that Huang satisfied these
criteria. She had only two assignments during the applicable
review period: the wireless-microphone-study report and a
TV Study report, Neither was ever completed. Drafts of the
former were not timely submitted, and what Huang deemed
as her “final” report is riddled with spelling, formatting, and
grammar errors. Even providing her some leeway given that

>#*

56a

language, she does not
English is not her first
contest that there were still several errors in the technical
analysis. Weller noted “gaps and inconsistencies in the data,”
and he was unable to reproduce several of Huang’s
calculations.
See PI. MSJ, Exh. E at 4-5 (Weller letter to Huang). The
draft on which Doczkat commented was submitted in
September - four months after Weller’s original deadline.
Huang never further revised the report and, by her own
account, ceased doing any work for the Agency, including
the TV Study. See PI. Opp. to Def. SOF,
26-27. She also
seemingly acknowledges that her work product was lacking.
See PI. MSJ at 1 (“In [sic] the surface, Defendant could
possibly show some Plaintiffs unacceptable performed
[sic].”). Huang, moreover, cannot rely on the timeline to
show pretext. While her fail rating (and the preceding poor
reviews) “followed closely on the heels,” Jones, 557 F.3d at
680, of her protected activity, it also occurred right after
Doczkat’s
16
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
17 of 19
September 11 comments on the report, and she has not
presented any evidence for a jury to attribute causation to the
former as opposed to the latter.
Plaintiffs proffered reasons why she should have received a
pass rating notwithstanding her objectively poor work
product all founder. First, she quotes language from the
Basic Negotiated Agreement between her Union and the
FCC, which states that “the supervisor shall assume full
responsibility for [his] instructions if they are carried out in
the manner prescribed by the supervisor.” PL MSJ, Exh. E
(BNA) at 10. To Huang this means that, once she responded
to Weller’s comments, he was on the hook for the report. Yet
the key point here is that Huang did not carry out her
supervisors’ instructions “in the manner prescribed.” Id.

57a

noted that her report failed
Both Weller and Doczkat
to address certain areas in the assignment and that the
Agency could not use it for its intended purpose.
Second, Plaintiffs argument that she tried to work on the
report but Doczkat never responded to her does not undercut
the legitimacy of Defendant’s reason for her step-increase
denial. Many of Doczkat’s comments related to formatting,
grammar, and spelling errors and should not have needed
additional discussion or clarification to fix. While Doczkat
could have been more responsive to her raising particular
issues concerning the technical analysis, a GS-15 engineer
like Huang is expected to “exercise [] a high degree of
originality, initiative and sound judgment.” ROI at 215.
Finally, Huang contends that Doczkat’s allegedly
discriminatory treatment caused near- fatal increases in her
blood pressure that prevented her from working. See PI.
MSJ, 2. To the extent Plaintiff is attempting to support a
Rehabilitation Act claim, that count was dismissed in the
prior Opinion. See Huang, 215 F. Supp. 3d at 107-08. If
Huang’s argument is simply that her hypertension prevented
her from satisfactorily completing her work, — and that she
was
17
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
18of 19
unjustly punished for that — such a claim is not actionable
under Title VII. At the end of the day, Huang produces no
evidence showing pretext, leaving the Court with the
Agency’s legitimate, non-discriminatory reason for not
giving her a step-up increase: poor performance.
***

In addition to her Motion for Summary Judgment, Plaintiff
also filed two Motions
requesting the Court to relay Defendant’s alleged crimes to a
prosecuting authority. See ECF No. 75 (Motion for
Honorable Judge to Take Actions Against Crimes of

58a

(Motion for Jury Trial and
Defendant); ECF No. 76
Opposition of Summary Judgment). Even if such a Motion
were appropriate in this civil matter, the Court is not aware
of evidence of criminal conduct here. Plaintiff also filed a
Motion asking the Court to adjudicate her claims under 42
U.S.C. § 1981, see ECF No. 81, but that count was
previously dismissed since the statute applies only to private
employers. See Huang, 215 F. Supp. 3d at 111. The Court
therefore denies these Motions.
IV. Conclusion
Plaintiff clearly had difficulty adjusting to a new
supervisor, and the Court does not doubt that she
may have been taken aback by Doczkat’s comments
and subsequent fail rating after receiving more than
20 years of satisfactory performance reviews. She,
however, concedes that she did not exhaust her
within-grade-pay-increase-denial claim before the
Agency, and the Court finds no equitable
considerations excuse her failure. Exhaustion aside,
no reasonable jury could find that Defendant’s
reason for denying her within-grade pay increase
was pretextual. The Court will therefore grant
Defendant’s Motion for Summary Judgment. A
separate Order consistent with this Opinion will be
issued this day.
/s/ James E. Boasberg JAMES E. BOASBERG
18
Case l:16-cv-00398-JEB Document 87 Filed 09/15/17 Page
19 of 19
Date: September 14,2017
United States District Judge
19

59a

Appendix G (App. G)
Petitioner’s Brief, on June, 28, 2018
pages
TABLE OF CONTENTS
1
I. JURISDICTIONAL STATEMENT
II. FEDERAL COURT PROCEEDINGS AND THE
1
DISTRICT COURT DECISION
.............
III. STATUTES AND REGULATIONS
............ 1
IV. THERE IS NO ARGUMENT FOR “ARGUMENT” and
“SUMMARY ARGUMENT”, BETWEEN APPELLANT
AND APPELLEES NOW.
........... 2
Appellees “consent and do not opposite” (see
Authority(a)) all:
(a)
Conclusions of Appellees intentionally
discriminated and retaliated against Appellant;
(b)
Material facts, physical evidences,
arguments, statements and more of Appellees
intentional discriminations and retaliations; and
(c) District court erred in dismissing this suit.
V. ISSUES PRESENTED FOR REVIEW ............ 2
VI. STATEMENT OF THE CASE for Appellees, who
“consent and do not opposite” (see Authority.(a))
that, Appellees intentionally discriminated and
retaliated against Appellant, by their following
6
actions:
* (a) concluded Appellant disqualifying for GS-15
6
position;
(b)
“willfully caused bodily injury to
Appellant”, (18 U.S.C.A § 249) at work place;

... 8

(c) knowingly and not “recklessly created many
substantial risks of death ... to Appellant” at

60a

work
place
(MD
Criminal Law § 3 204); ... 8
(d) deprived Appellant’s constitutional rights
of life (U.S. Constitution Amendments I,
V,
XIV, and etc.);
8
(e) denied Appellant’s within grade GS-15 step
increase;
9
11
(f) and more 2.
VII. STATEMENT OF THE CASE for district
court erred. Appellees “consent and do not
opposite” (see Authority.(a)) that, District Court
11
Erred in:
(a) “Concealed or removed physical evidences” in
his rulings,
which reasonable jury could find
Appellees unlawfully acted, (MD Criminal Law, §
12
9-307; 18 U.S.C.A. §1512,(b)(2)(B)(ii».
(b)
Deprived Appellant’s constitutional “rights
of trial by jury” (U.S. Constitution,Amendment
VII), because of her race, sex, national origin, age,
1?
disabilities.
(c) Dismissed Appellant’s “most (except one) and
important claims before any jurisdictional discovery
were take”, and
this honorable court generally
reversed it in such situation.
13
(d) Failed to provide reasonable accommodations
to Appellant with “impaired hearing or
communication disabilities” at court’s
teleconference, as regulated in “guide to judiciary
14
policy”.
2 Because of: (a) limited space, (b) Appellant was and is very
sick, and could not work more on it; otherwise, Appellant plans
or might file more, if is allowed by proceedings and by her
healthy.

61a

(e) Failed to follow U.S. Supreme court
established McDonnell Douglas burden shift
framework to present a legitimate reason for
disparately and adversely treated and ruled
against Appellant, based on her race, sex,
15
national origin, age, disabilities
17
(f) dismissed this suit.
17
(g) and more, footnote [FN1].
17
VIII. CONCLUSIONS
18
IX. RELIEF REQUESTS
X. WHETHER DISTRICT COURT JUDGE ERRED
IN HIS PATTERN OF CONCEALING FACTS,
WHEN
RULED
ON
DISCRIMINATIONS,
ESPECIALLY
FOR
ASIAN
AMERICAN
20
COMPLAINANTS.
XI. CERTIFICATE OF WORDS, PAGES, AND
SERVICES
............. 24
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
BRIEF OF APPELLANT
Qihui Huang, Plaintiff-Appellant
v.
Ajit Varadaraj Pai, et al. Defendants-Appellees
Appeal No. 17-5290, September Term, 2017
June 28, 2018.
On Appeal from the United States District Court
for the District of Columbia in Case No. l:16-cv00398-JEB (Hon. James E. Boasberg, Judge)
P.O. Box 34014
Bethesda Maryland, 20827

62a

E-mail:
Phone:

qhh@hotmail.com
240-423-0406

TABLE OF AUTHORITIES (Authority.)
pages
2,3,4,5,6,7,8,9,10,12,
Authority, (a)
13, 14, 18, 20
(a).l United States Supreme Court
Kernan v. Hinojosa. U.S. Supreme Court, Mayl6,
2016 136 S.Ct. 16032016WL2842454 15-833:
this presumption was adopted because
silence implies consent, not the opposite. 28 U.S.C.A.
§ 2254. 9 Cases that cite this headnote.” “We adopted
this presumption because “silence implies
consent. not the opposite—and courts
generally behave accordingly, affirming *1606
without further discussion when they agree,
not when they disagree, with the reasons given
below.” Id., at 804, 111 S.Ct. 2590.”
Ylst v. Nunnemaker, U.S. Supreme Court, June 24,
1991 501 U.S.797 111 S.Ct. m,2590 90-68;
“The maxim is that silence implies consent.
not the opposite-and courts generally behave
accordingly,
affirming
without
further
discussion when they agree, not when they
disagree, with the reasons given below. The essence
of unexplained orders is that they say nothing."
(a).2 Tweleve (12) United States Court of Appeals
quoted, followed and pursued above U.S Supreme
Court’s rulings:

63a

United States Court of
Bledsue v. Johnson.
Appeals, Fifth Circuit, August 31, 1999 188 F.3d
250 1999 WL 675097 97-11195.
Brecheen v. Reynolds, United States Court of
Appeals, Tenth Circuit. October 14, 1994 41 F.3d
1343 1994 WL 562159 94-7084
Grueninser v. Director, Virginia Dept, of Corrections,
United States Court of Appeals, Fourth
Circuit. February 09, 2016 813 F.3d 5172016 WL
502939 14-7072.
Guilmette v. Howes, United States Court of Appeals,
Sixth Circuit, .October 21, 2010 624 F.3d 286 2010
WL 4117281 08-2256.
Nicolas v. Attorney General of Maryland, United
States Court of
Appeals, Fourth Circuit. April 27,
2016 820 F.3d 124 2016 WL 1660204 15-6616.
Serrano v. Fischer, United States Court of Appeals,
Second Circuit, June 20, 2005 412 F.3d 292 2005
WL 1427298 03-2670.
Steward v. Cain United States Court of Appeals,
Fifth Circuit, July 20, 2001 259 F.3d 374 2001 WL
826686 00-30931.
Sweet v. Secretary. Dept, of Corrections, United
States Court of Appeals, Eleventh Circuit. October
23, 2006 467 F.3d 13112006 WL 3000958 05-15199.

64a

Tower
United States Court of
v.
Phillips,
Appeals, Eleventh Circuit, November 17, 1993 7
F.3d 2061993 WL 441294 90-4038.
Wilson v. Warden, Georgia Diagnostic Prison United
States Court of Appeals, Eleventh Circuit. August
23, 2016 834 F.3d 12272016 WL 4440381 14-10681.
Woodfolk v. Maynard, United States Court of
Appeals, Fourth Circuit. May 23, 2017 857 F.3d
531 2017 WL 2240221 15-6364.
Serraano v. Fischer, United States Court of Appeals,
Second Circuit, June 20, 2005 412 F.3d 292 2005
WL 1427298 03-2670.
(a).3 About twenty (20) United States District
Courts quoted, followed, and pursues above two
rulings of U.S. Supreme Court, in paragraphs f (a)l.
Alvarez v. Straub, United States District Court, E.D.
Michigan, Southern Division. August 30, 1999 64
F.Supp.2d 686 1999 WL 684149 97-CV-71822-DT.
Blackwell v. Garcia, United States District Court,
E.D. California. June 03, 2005 Not Reported in
F.Supp.2d 2005
WL
1367054 CIV
S020821FCDCMKP.
Boulds v. Thaler, United States District Court, S.D.
Texas, Houston Division. August 01, 2011 Not
Reported in F.Supp.2d 2011 WL 3325854CIV.A. H10-1799.

65a

United States District
Dennis
v.
Mitchell,
Court, N.D. Ohio, Eastern Division. October 01,
1999 68 F.Supp.2d 863 1999 WL 781702 1:98-CV1155.
Clavelle v. Secretary, Florida Department of
Corrections, United States District Court, M.D.
Florida, Jacksonville Division. May 02, 2018 Slip
Copy 2018 WL 2047276 3:16-CV-78W-39PDB.
Crawford v. Quarterman, United States District
Court, S.D. Texas, Houston Division. March 03,
2009 Not Reported in F.Supp.2d 2009 WL
579501CIV.A. H-07-2385.
Dhaity u. Warden, United States District Court, D.
Connecticut. March 20, 2014 5 F.Supp.3d 215 2014
WL 1089265 3:07-CV-1810 CSH.
Dickev-O'Brien v. Yates, United States District
Court, E.D. California. June 12, 2013 Not Reported
in F.Supp.2d 2013 WL 2664418 2:07-CV-1241 WBS
CKD.
Dunaway v. Dir, of Dept, of Corr„ United States
District Court, W.D. Virginia, Roanoke
Division. May 26, 2010 Not Reported in
F.Supp.2d 2010 WL 21631657:10-CV-00120.
Ferguson v. Shewalter, United States District Court,
N.D. Ohio, Eastern Division. April 26, 2011 Not
Reported in F.Supp.2d 2011 WL 2711415 1:10 CV
496.

66a

Gardner v. Secretary,
Florida Department of
Corrections, United States District Court, M.D.
Florida, Jacksonville Division. April 20, 2018 Slip
Copy 2018 WL 1898756 3:16-CV-602-J-39PDB.
Grant v. Sheldon, United States District Court, N.D.
Ohio, Western Division. August 15, 2012 Not
Reported in F.Supp.2d 2012 WL
34941941:11CV942.
Hartley v. Senkowski, United States District Court,
E.D. New York. March 18, 1992 Not Reported in
F.Supp. 1992 WL 58766 CV-90-0395.
U.S.
. 136 S.Ct. 1603,
Kernan v. Hinojosa^
1605-606, 194 L.Ed.2d 701 (2016) (per curiam)
presumption silence
(adopting
the
implies consent,”
Lee v. Shepherd, United States District Court, E.D.
California.
January 16, 2007 Not Reported in F.Supp.2d 2007
WL 135671 CIVS03-2197 LKK KJMP.
Martinez v. Paramo, United States District Court,
C.D. California.
September 09, 2016 Not Reported in Fed. Supp. 2016
WL 5662046 CV 14-8348-CAS (AGR).
May v. Ryan, United States District Court, D.
Arizona. March 28, 2017 245 F.Supp.3d 1145 2017
WL 1152812 CV-14-00409-PHX-NVW.

67a

Moore v. Secretary of
Florida Dept. of
Corrections, United States District Court, M.D.
Florida, Jacksonville Division. March 30, 2010 Not
Reported in F.Supp.2d 2010 WL 1257688307-CV117-J-34MCR.
Steven R. Baker, Petitioner, V. Secretary,
Department Of Corrections, Et Al
Respondents. United States District Court, M.D.
Florida. June 18, 2018 Slip Copy 2018 WL
3019960 3:16-CV-1243-J-39JRK
*9

San-Miguel v. Secretary, Florida Department of
Corrections, United States District Court, M.D.
Florida, Jacksonville Division. May 11, 2018 Slip
2183887 3:16-CV—891-J—
WL
Copy 2018
U.S.
39PDB “Recently, in Wilson v. Sellers,
(2018), the
L.Ed.2d
, 138 S.Ct. 1188, 1194.
Supreme Court concluded there is a “look through”
habeas
law,
federal
presumption
in
as silence implies consent.
Schneider v. Davis, United States District Court,
W.D. Texas, Austin Division. June 12, 2017 Slip
Copy 2017 WL 2562232 A-16-CA-0468-LY-AWA.
(a).4 More:
Beattie v. Gardner, District Court, N.D. New
York. January 01, 1871 4 Ben. 479 4 N.B.R. 323.

68a

Associates, District
Billman v. Alley
Court of the Virgin Islands, Division of St.
Croix. May 03, 1983 Slip Copy 1983 WL 952745 CV
79/197, CV 81/122.
“Thus, the first essential element of equitable
estoppel, a representation by the party to be
verbal
estopped, may consist of some express
statement or consent, an act or conduct which
implies consent or acquiescence, an admission,
or silence when there is a duty to speak.”
Hardy u. U.S., Supreme Court of the United
States January 06, 1964 375 U.S. 277 84 S.Ct.
424112:
“According to counsel, the Federal District Court,
pursuant to a ‘tacit’ understanding, usually grants
unopposed motions for a complete transcript.”
Authority, (b) CASE
Arriva Medical LLC v. United States Department of
Health and Human Services. United States District
Court, District of Columbia. March 09, 2017 239
F.Supp.3d 2662017 WL 943904 CV 16-2521-JEB)
23

Geleta v. Gray, United States Court of Appeals,
District of Columbia Circuit. June 17, 2011 645 F.3d
17
408 2011 WL 2417142 10-7026
Reversed and remanded. Headnotes:
“Shifting and inconsistent justifications for an
adverse employment action are probative of
pretext. “21 Cases that cite this headnote”

69a

Columbia Water and
Harris v. District of
23
Sewer Authority
United States Court of Appeals, District of Columbia
Circuit. June 23, 2015 791 F.3d 65 2015 WL
3851919 13-7043, 791 F.3d 65, No. 13-7043.
Price Waterhouse v Hopkins, Supreme Court of the
United States May 1, 1989490 U.S. 228109 S.Ct.
1775104 L.Ed.2d 268
University of Texas Southwestern Medical Center v.
Nassar, U.S. Supreme Court June 24, 2013 570 U.S.
338 133 S.Ct. 2517 12-484, headnotes.
Wheeler v. Georgetown University Hospital, United
States Court of Appeals, District of Columbia
Circuit. February 12, 2016 812 F.3d 1109 2016 WL
23
556705 14-7108.
AND
LAWS
Authority, (c) STATUTES,
3, 6, 7, 18
REGULATIONS
1. U.S. Constitution Amendment I, V, and XIV.
2. NO FEAR ACT.
3. All laws related to employment discriminations
and retaliations.
4. Evidence Appellees’ intentional discriminations
and retaliations by:
(a,b) U.S. Supreme Court established burden shift
frameworks
(a) McDonnell Douglas
(b) Price Waterhouse

■i

70a

Price Waterhouse
v Hopkins, Supreme
Court of the United States May 1, 1989490 U.S.
228 109 S.Ct. 1775 104 L.Ed.2d 268;
University of Texas Southwestern Medical
v. Nassar, U.S. Supreme Court June 24,
Center
U.S. 338 133 S.Ct. 2517 12-484,
2013 570
headnotes.
(c) Discriminatory Motivations; 42 U.S.C.A. §
2000e-2, Unlawful employment practices.
5. Fed.Rules Civ.Proc.:
(a)
Rule 36, (3), (4); and etc.
(b) Rule 52. Findings and Conclusions by the
Court; Judgment on Partial Findings.
MD Criminal law, § 3-204 Reckless endangerment;
“Prohibited (a) A person (Appellees) may
not recklessly: (1) engage in conduct that creates a
substantial risk of death or serious physical injury
to another (Appellant); ...”.
MD Criminal Law, § 9-307 Impairment of verity or
availability of physical evidence.
18 U.S.C.A. Chapter 13 Civil rights, § 249 Hate
crime acts.
“Offenses (of Appellees) involving actual
race, or national origin.— Whoever
(Appellees),
whether or not acting under color of law,
willfully caused bodily injury to any person
(Appellant) or, ... or incendiary device, attempted
to cause bodily injury to any person (Appellant),
because of the actual race, or national origin of any
person (Appellant)”.

71a

18 U.S.C.A. §1512, (b) (2) (B) (ii).
I. JURISDICTIONAL STATEMENT
Pursuant to the Federal Rule of Appellate
Procedure 28(a)(4) and Circuit Rule 28(a), Appellant
states concerning jurisdiction. For District Court
Jurisdiction -- This case is an action brought to
complain discriminations and retaliations against
chairman
and
supervisors
of
Federal
Communications Commission (FCC), based on
Appellant’s race, sex, national origin, age,
disabilities,
complained
discriminations
and
retaliations, and is a member of statutes protected
class. Accordingly, the United States District Court
for District of Columbia had subject matter
jurisdiction of Appellant’s discrimination and
retaliation complaints. For Court of Appeals
Jurisdiction -- This Court has jurisdiction of the
appeal from the final decision of the District Court,
which issued a final Order and dismissed Appellant’s
case on October 23, 2017, Appendix.20.
II. FEDERAL COURT PROCEEDINGS and
THE DISTRICT COURT DECISION
The United States of District Court for District
Court Judge James E. Boasberg ordered to dismiss
the suit on October 23, 2017, Appendix.20. Appellant
timely filed notice of Appeal, Appendix. 1.
III. STATUTES AND REGULATIONS
The relevant statutes, laws and regulations are
set forth in the separate “Table of Authorities” to
this Brief.
IV.THERE IS NO ARGEMENT FOR
“ARGUMENT” and “SUMMARY ARGUMENT”,

72a

BETWEEN
APPELLEES NOW.

APPELLANT AND

Appellees “consent and do not opposite” (see
Authority (a)):
(a) Multiple and all conclusions of district court
erred in dismissing this suit, and erred in multiple
actions;
(b)
All conclusions of Appellees intentionally
discriminated and
retaliated against Appellant; which support above f
IV. (a);
(b)
All material facts, physical evidences,
arguments, statements of Appellees intentional
discriminations and retaliations; which support
above3 f IV.(a).
(d) More 3.
V. ISSUES PRESENTED FOR REVIEW
Appellant respectfully request Honorable Judge
to review following issues, although Appellant
already “consent and do not oppose”
(Authority(a)) all following conclusions. 4,5, G.
3 Because of: (a) limited space, (b) Appellant was and is very
sick, wherefore, she could not work more on it. Appellant
wishes, plans or might, to file more, if is allowed by proceedings
and by her healthy.
4 Appellant respectfully requests Honorable Judges to
understand that there are so many issues represented to
review, because district court judge erred in many things, and
Appellees consented and do not oppose all of there issues, see
Authority.(a)).
5 Would Appellant and/or honorable Judges thank Appellees
and their lawyers, by or because they recently improved their
behaves of not continually to “alter, destroy, mutilate,
or conceal an object with intent to impair the integrity or

73a

respectfully request
V.(a)Appellant
Honorable Judge to review, which Appellees
already “consented and do not oppose”
(Authority(a)) all conclusions of District Court
erred in the following.
See evidenced in Appeldix.8, 9, 10, 11, 12, 13 14,
15, 16, 17, 18, 19, 2oC 21, 22,' 23, 24, 25, 26, 27, 28,
29, 30, 31, 32, and 33 -- Appellant filed motions and
Appellees “consented and do not oppose” all her
motions, (Authority.(a))
District court judge erred in “concealed or
(a)(1)
removed physical evidences”, which reasonable jury
could find Appellees’ unlawful actions, (MD Criminal
Law, § 9-307; 18 U.S.C.A.
§ 1512,(b)(2)(B)(ii),
Authority.(a),(c).
Appellees: consent _, oppose_, unknown_
District court erred in depriving Appellant’s
(a)(2)
constitutional “rights of trial by jury” (U.S.
Constitution, Amendment VII), because
of her race, sex, national origin, age, disability.
Appellees: consent_,oppose_, unknown_
(a)(3) District court erred in dismissing Appellant’s
“most (except one) and important claims before any
jurisdictional discovery were take”, and this
honorable court generally reversed it in such
situation.
Appellees: consent _, oppose_, unknown_

availability of the object for use in an official proceeding”; (18.
U.S.C.A. § 1512, (b) (2) (B) (ii)).
6 To save honorable Judges’ times to only focus on Appellees
disputed facts, laws, statements, and conclusions, Appellant
here let Appellees to show their standings.

74 a

court
erred in failure to
(a)(4) District
provide reasonable accommodations to Appellant
with “impaired hearing or communication
disabilities” at court’s teleconference, as regulated in
“guide to judiciary policy”; and caused injures to her.
Appellees: consent oppose_, unknown_
(a)(4) District court erred in disparately and
adversely treated and ruled against Appellant, based
on her race, sex, national origin, age, disability, and
is a member of statutes protected class; and failed to
present a legitimate reason for it, under the
McDonald Douglas burden shift frameworks.
Appellees: consent _, oppose,., unknown_
(a)(5) District court erred in dismissing this suit.
Appellees: consent _, oppose_, unknown_
(a)(6) And more, [FN1].
V.(b) Appellant respectfully request Honorable
Judge to review, which Appellees already
“consented and do not oppose” (Authority(a))
all conclusions, facts and statements of
Appellees’ discriminations and retaliations in
the following.
See evidenced in Appeldix.8, 9, 10, 11, 12, 13 14,
15, 16, 17, 18, 19, 20, 21, 22, 23, 24, 25, 26, 27, 28,
29, 30, 31, 32, and 33 -- Appellant filed motions and
Appellees “consented and do not oppose” all her
motions, (Authority.(a))
These reviewing will further approve district
court erred in dismissing this suit, and improperly
acted in multiple places.
Based on Appellant’s race, sex, national origin,
age, disabilities, complained discriminations and

75a

and
retaliations, Appellees
discriminated
retaliated against her on many happenings.
See U.S. Supreme Court’s two identical rulings,
and consistently followed by about twelve (12) U.S.
Court of Appeals and 22 U.S. District Courts, (see
Authority.(a)). Federal court’s rulings rule and
conclude that Appellees firmly and repeatedly
“consent, and do not opposite” followings:
(1) material facts, physical evidences, arguments,
statements, and more of Appellees intentionally
discriminated and retaliated against Appellant,
Appellees: consent _, oppose_, unknown_
(2) conclusions
of
Appellees
intentionally
discriminated and retaliated against Appellant, in
their following actions:
Appellees: consent _, oppose_, unknown_
(2)(A)Appellees concluded Appellant disqualifying
for GS-15 position;
Appellees: consent _, oppose_, unknown_
(2)(B) Appellees “willfully caused bodily injury to
Appellant” (18 U.S.C.A § 249) at work place;
Appellees: consent _, oppose_, unknown_
(2)(C) Appellees knowingly “created many
... to Appellant”
substantial risks of death
at work place (MD Criminal Law § 3-204);
Appellees: consent _, oppose_, unknown_
(2)(D) Appellees
deprived
Appellant’s
constitutional rights of life;
Appellees: consent oppose_, unknown_
(2)(E) Appellees denied Appellant’s within grade
GS-15 step increase;
Appellees: consent _, oppose_, unknown_

76a

(2)(F) and more [FN1].
Appellees: consent

oppose_, unknown_

VLSTATEMENT OF THE CASE for district
court erred,
Appellees “consent and do not opposite” (U.S.
Supreme Court’s two identical rulings, and
consistently followed by about 12 U.S. Court of
Appeals and 22 U.S. District Courts, see
Authority.(a) that, DISTRICT COURT ERRED in:
(a) “Concealed or removed physical evidences” in his
rulings, which reasonable jury could find Appellees
unlawfully acted, (MD Criminal Law, § 9-307; 18
U.S.C.A. §1512,(b)(2)(B)(ii));
(b) Deprived Appellant’s constitutional “rights of trial by
jury” (U.S. Constitution, Amendment VII), because of
her race, sex, national origin, age, disabilities;
(c) Dismissed Appellant’s “most (except one) and
any
important claims before
and
this
take”
jurisdictional discovery were
honorable court generally reversed it in such
situation;
(d) Failed to provide reasonable accommodations to
Appellant with “impaired hearing or communication
disabilities” at court’s teleconference, as regulated in
“guide to judiciary policy”;
(e) Failed to follow U.S. Supreme court established
McDonnell Douglas burden shift frame work to
present a legitimate reason for disparately and
adversely treated and ruled against Appellant, based
on her race, sex, national origin, age, disabilities;
(f) dismissed this suit;
(g) and more, [FN1].

77a

“concealed or
VI.(a) District Court
removed physical evidences” in its rulings,
which could evidence unlawful actions of
Appellees, (MD Criminal Law, § 9-307; 18 U.S.C.A.
§1512,(b)(2)(B)(ii), Authority.(c). See Appendix.22,
23, 26.
(a).l On 5/22/2018, Appellant filed “motion for
court’s factual findings,
clarification of district
which concealed or removed physical evidences
(MD Criminal Law, § 9-307) on Appellees
Appellant
of
discriminatory conclusions
disqualifying for GS-15 position”.
See Appendix.22.
(a).2 On 5/25/2018, Appellant filed “motion for
court’s factual findings and
clarification of district
rulings, where “concealed or removed physical
evidences” (MD Criminal Law §9-307) of Appellees
knowingly “created many substantial risks of
death ... to Appellant” at work place (MD Criminal
Law §3-204). Appellees caused Appellant could not
work because to avoid her death, and deprived her
constitutional rights.”
See Appendix.23.
(a).3 On 6/4/2018, Appellant filed “motion to clarify
district court’s factual findings and rulings on
Appellees denied Appellant’s within grade step
increase. Evidences of Appellees caused Appellant’s
“failure of exhaust administrative remedies” were
removed” (MD Criminal Law, §
“concealed or
9-307).
See Appendix.26.
(a).4 Until now (6/28/2018), Appellant did not
receive any opposition for above three motions from
Appellees. Wherefore Appellees “consent and do not

78a

Court’s two identical
opposite” (U.S. Supreme
rulings, and consistently followed by about 12 U.S.
Court of Appeals and 22 U.S. District Courts, see
Authority, (a)) that aforementioned “district court’s
factual findings and rulings, where ‘concealed or
removed physical evidences’ of ...” (MD Criminal
Law § 9-307; and 18 U.S.C.A. § 1512, (b)(2)(B)(ii),
Authority, (c)).
(a)(5) Appellees had no any fact and no any law to
oppose aforementioned facts and laws of “district
court’s factual findings and rulings, where ‘concealed
or removed physical evidences’ of ...” (MD Criminal
Law § 9-307; 18 U.S.C.A. § 1512, (b)(2)(B)(ii),
Authority, (a)).
(a)(6) See more in following f X.
District Court Erred in depriving
VL(b)
Appellant’s constitutional “rights of trial by
jury” (U.S. Constitution, Amendment VII),
because of her race, sex, national origin, age,
disabilities. See Appendix.25.
(b).l On 6/1/2018, Appellant filed “motion for
reverse and vacate district court’s dismissing this
suit; where deprived Appellant’s constitutional
“rights of trial by jury” (U.S. Constitution,
Amendment VII), because of her race, sex, national
origin, age, disability.”
See appendix.25.
(b).2 Until now (6/28/2018), Appellant did not
receive any opposition from Appellee. Appellees had
no any fact and no any law to oppose, but they
“consent and do not opposite” (U.S. Supreme Court’s
two identical rulings, and consistently followed by
about 12 U.S. Court of Appeals and 22 U.S. District
Courts, see Authority, (a)) aforementioned district

79a

Appellant’s
deprived
court
constitutional rights of trial by Jury (U.S.
Constitution Amendment VII).
VI.(c) District Court Erred in dismissing
Appellant’s “most (except one) and important
claims before any jurisdictional discovery
were take”, and this honorable court generally
reversed it in such situation.
See Appendix.28.
(c).l On 6/7/2018, Appellant filed “motion to
reverse and vacate district
court’s
rulings
of
dismissing, -- based on Appellant’s “most (except
one) and important claims were dismissed before any
jurisdictional discovery were take”, and this
honorable court
generally reversed it.”
See Appendix. 28.
(c).2 Until now (6/28/2018), Appellant did not
receive any opposition from Appellees. Appellees had
no any fact and no any law to oppose, but they
“consent and do not opposite” (U.S. Supreme Court’s
two identical rulings, and consistently followed by
about 12 U.S. Court of Appeals and 22 U.S. District
Courts, see Authority.(a)) aforementioned district
court erred in dismissing the suit before many and
important claims before discovery, and this court
generally reversed it.
VI.(d) District Court erred in failures to
provide
reasonable
accommodations
to
Appellant
with
“impaired
hearing
or
communication
disabilities”
at
court’s
teleconference, as regulated in “guide to
judiciary policy”. See Appendix.30, 31.

1

'T

.«*•

80a

(d).l On
6/11/2018,
Appellant filed “motion
to clarify facts of district court failed to provide
reasonable accommodations to Appellant with
“impaired hearing or communication disabilities”
at court’s
teleconference, (as regulated in “guide
to judiciary policy”); and caused injures to her.”
See Appendix.30.
(d).2 On 6/11/2018, Appellant filed “motion to
reverse and vacate district
court’s
rulings
of
dismissing, -- based on it failed to provide
reasonable accommodations to Appellant with
“impaired hearing or communication
disabilities” at court’s teleconference, (as regulated
in “guide to judiciary policy”); and caused injures to
her.
See Appendix.31.
(d).3 Until now (6/28/2018), Appellant did not
receive any opposition from Appellees. Appellees had
no any fact and no any law to oppose, but they
“consent and do not opposite” (U.S. Supreme Court’s
two identical rulings, and consistently followed by
about 12 U.S. Court of Appeals and 22 U.S. District
Courts, see Authority.(a)) aforementioned district
court erred in failure to provide reasonable
accommodations to Appellant with “impaired
hearing or communication disabilities” at court’s
teleconference, (as regulated in “guide to judiciary
policy”); and caused injures to her.
VI.(e) Based on her race, sex, national origin,
age, disabilities, and is a member of statutes
protected class, District Court erred in failures
to pursue U.S. Supreme Court established
McDonnell Douglas burden shit framework, by:

81a

to
present a legitimate
(1)
failed
reason for it disparately and adversely treated
and ruled against Appellant; and
(2)
dismissed the case when she has
established the prima facie of Appellees’
intentional discriminations and retaliations.
See Appendix.9, 10, 11, 12, 13, 14, 15, 16, 17, 18, 19.
VI.(e)(l) District court failed to present a
legitimate reason for it disparately and
adversely treated and ruled against Appellant.
(e)(1) (A)Appellant-Plaintiff filed multiple motions
and stated the facts that district court judge
disparately and adversely treated and ruled against
her, based on her race, sex, national origin, age,
disabilities. See Appendix.9,10, 11, 12, 13, 14, 15, 16,
17, 18, 19.
Appellees: consent _, oppose_, unknown_
(e)(1)(B) U.S. Constitutions and many Laws protect
Appellant’s rights to seek her equal rights.
Appellees: consent _, oppose_, unknown_
(e)(1)(C) District court judge failed to present a
legitimate reason for he disparately and adversely
treated and ruled against Appellant. See district
court judge’s order, Appendix.20. Appellees:
consent _, oppose_, unknown_
(e)(1)(D) Under U.S. Supreme Court established
McDonnell Douglas burden shift framework, have
peoples established the prime facie of the district
court’s intentional discriminations or not? Appellees:
consent _, oppose_, unknown_
(e)(1)(E) See more in following Tf X.
VI(e)(2) District court erred in
dismissing the case when Appellant had

?

)

82a

established the prima
facie of Appellees’
intentional discriminations and retaliations.
Appellees: consent oppose_, unknown.
(e)(2)(A) Appellees disparately and adversely
treated Appellant as exampled in above paragraphs.
Appellees: consent oppose., unknown
(e)(2)(B) Appellees failed to present a legitimate,
non-discriminatory and non-retaliatory reason for
they disparately treated Appellant.
Appellees: consent _, oppose., unknown.
(e)(2)(C) Under McDonnell Douglas burden shift
framework, Appellant has established the prima
facie of Appellees’ intentional discriminations and
retaliation.
Appellees: consent _, oppose., unknown.
(e)(2)(D) When Appellant has established the prima
facie of Appellees’ intentional discriminations and
retaliations under McDonnell Douglas burden shift
framework, district court judge dismissed her suit.
Why?
Appellees: consent _, oppose., unknown.
VI(f) District Court erred in dismissing this
suit. See all Appendix!
Appellees: consent _, oppose., unknown.
Any one, more, or all aforementioned facts and
laws suffice for Honorable Judges here to: (1)
conclude that the district court erred in dismissing
this suit; and (2) vacate or reverse district court’s
rulings.
Appellees: consent _, oppose., unknown.
VI.(g) and more, [FN1]. See more in
following paragraph Tf X.
VII. STATEMENT OF THE CASE for

83a

Appellees
— who “consent and do not opposite” (U.S.
Supreme Court’s two identical rulings, and
consistently followed by about 12 U.S. Court of
Appeals and 22 U.S. District Courts, see
Authority.(a)) that, APPELLEES intentionally
discriminated
and
retaliated
against
Appellant, by their following actions:
(a) Concluded Appellant disqualifying for GS-15
position;
(b)
“Willfully caused bodily injury to Appellant”,
(18 U.S.C.A § 249) at work place;
(c) Knowingly and “not recklessly created many
substantial risks of death ... to Appellant” at
work place, (MD Criminal Law § 3-204);
(d) Deprived Appellant’s constitutional rights .of life
Constitution Amendments I, V, XIV,
(U.S.
and etc.);
(e) Denied Appellant’s within grade GS-15 step
increase; and
(f) More; [FN1].
Appellees consented and did not oppose
(Authority, (a)) all their following actions were their
intentional discriminations and retaliations. These
facts further prove district judge erred in dismissing
this suit against Appellant.
VII.(a) Appellees discriminatorily concluded
Appellant disqualifying for GS-15 position. See
Appendix.21, 22.
(a).l About 23 years worked at FCC, Appellant has
all good records of her performance, including ten
and half years performed at GS-15. Only few days
Appellee Doczkat non-competitively appointed as

84a

discriminatorily
acting branch chief, he
concluded 7 she disqualifying for GS-15. Facts
showed Appellees’ discriminatory motivations.
(a).2 Appellees’ conclusions [FN5] replied on
reasons and pretexts of Appellant did not do some
things. These Appellees pretexted reasons were not
in the written job assignment to Appellant, and
former supervisor never instructed her to do things.
Facts showed Appellees’ discriminatory motivations,
(a).3 Appellant completely performed according
former supervisor’s instructions. Government
multiple rules and Agreement between FCC and
Union regulated that her former supervisor must
fully respond all reports, but not Appellant’s
responses. Appellees erred and discriminated in
their conclusions [FN5] against Appellant, but not
former supervisor. Facts showed Appellees’
discriminatory motivations.
(a).4 Appellees used about 83 comments for their
conclusions [FN5]. Appellees undisputed and
consented
(U.S.
Supreme
court’s
rulings,
Authority, (a)) that none of their 83 comments could
support their conclusion [FN5] against Appellant.
Facts showed Appellees’ discriminatory motivations,
(a).5 Appellant worked under multiple supervisors
including chiefs of OET, FCC. Appellees must first
conclude all her former supervisors disqualifying for
SES and GS-15, based on they all failed to find and
conclude Appellant disqualifying for GS-15 for ten

7 About 9/11/2014, Appellees concluded Appellant
disqualifying for a GS-15 position, on a study report of wireless
microphones.

85a

and half years. While
appellee Doczkat only in
GS-15 few months and acting branch chief few days,
found and concluded [FN5] it. Facts showed
Appellees’ discriminatory motivations.
(a).6 Appellees’ work assignment on Appellant
purposed for them fabricating pretexts and stepped
to fire her, if they could not evidence they were not
VL(b)(c)(d):
Appellees
Intentionally
Discriminated
and
Retaliated
against
Appellant, by they:
(b) “willfully caused bodily injury to
Appellant”, (18 U.S.C.A § 249) at work place;
(c) knowingly and not “recklessly created
many substantial risks of death ... to
Appellant” at work place (MD Criminal Law §
3-204);
and
(d)
deprived
Appellant’s
constitutional rights of life (U.S. Constitution
Amendments I, V, XIV, and etc.).
See Appendix.23, 24.
(b,c,d).l Appellant was healthy and her blood
pressures were normal even without medicine,
before Appellees’ discriminatory conclusions [FN5].
(b.c.d).2 Since and after their discriminatory
conclusions [FN5], Appellees caused that, -- when
they contacted with Appellant, her blood pressures
uncontrollably and promptly raised to about 180
mmHg, (highest was 223 mmHg). Honorable district
court judge admitted above phenomenon.
(b,c,d).3 Peoples’ with common senses know that
blood pressures about 180 mmHg are fife threaten
(doctor’s notes), and have “substantial risks of death
or serious physical injures” (MD Criminal Law,§ 3204).

86a

“willfully caused bodily
(b,c;d).4 Appellees
injury to Appellant”, (18 U.S.C.A § 249) at work
place; and willfully “engaged in conduct that created
many substantial risks of death or serious physical
injures on Appellant” at work place, (MD Criminal
Appellees
knowingly,
3-204,App.7).
Law,§
continually, and not recklessly “created many (not
one) substantial risks of death to Appellant”, much
more worse than regulates in MD Criminal Law, § 3204.
(b,c,d).5 Appellees escaped their liabilities which
were because they caused and “created many
substantial risks of death to Appellant” at work
place, (MD Criminal Law,§ 3-204).
discriminatorily
and
VI.(e) Appellees
retaliatorily denied Appellant’s within grade
GS-15 step increase. See Appendix.26, 27.
(e).l Around end of 2/2015, Appellees denied
Appellant’s within grade (GS-15) step increase,
which never happened for about 23 years she worked
at the FCC.
(e).2 Appellees argued in court on complaint of step
increase that Appellant’s “failure of exhaust
administrative remedies”.
(e).3 District court judge accepted Appellees’
arguments of “failure of exhaust administrative
remedies”, ruled against Appellant and dismissed
the case.
(e).4 Facts are Appellees did not respond
Appellant’s multiple e-mails and requests for EEO
counselors, when she initiated her Complaints
around end of 1/2015 to following a few months.
Facts are Appellees’ “no response and no action” on

87a

for
EEO
her
e-mails
and
requests
counselors caused:
(1)
Appellant could not go any further of her
complaints;
Appellees did not start “administrative
(2)
remedies” in fact;
Appellant could not and did not fail to
(3)
and
not-existed
exhaust the not- started
“administrative remedies”; and
(4)
Appellees have duty but they failed to
instruct Appellant how she exhausts a non-existed
“administrative remedies”.
(e).5 Appellant talked with an honorable EEOC
judge face to face at EEOC building regarding her
complaint; went through, undergo, and experienced
the EEOC processing. Appellant qualified for further
actions after EEOC.
(e).6 Appellees’ “no response and no action” only
happened on Appellant. Appellees failed to present a
legitimate, non-discriminatory and non-retaliatory
reason for they disparately and adversely treated
Appellant.
(e).7 Based on above facts, this lawsuit should not
be dismissed by Appellees’ arguments of “failure of
exhaust...”. Facts showed Appellees lied and their
lawyers misconducted in court.
(e).8 Other than the
“failure
of
exhaust
administrative remedies”, if there was or is any
other reason, explanation, or justifications, (it
happened at district court), Appellees and district
court judge’s “shifting and inconsistent justifications
for an adverse employment action are probative of

-1,

88a

pretext”, Geleta v. Gray,

U.S. D.C Circuit.

VI. (f) and more; [FN1].
VIII. CONCLUSIONS
Appellant with her thousands supporters
(Appendix.3) respectfully request Honorable Judges
to:
(a) Consistently and firmly follow U.S. Supreme
Court two identically ruled, consistently followed by
about 12 U.S. Court of Appeals and 22 U.S. District
Courts, (Authority, (a)) that:
Appellees’ “silence implies their consent, not the
opposite-and
courts
generally
behave
accordingly.
affirming
without
further
discussion when they agree, not when they
disagree, with the reasons given below. The essence
of unexplained orders is that they say nothing."
See and quote Ylst v. Nunnemaker, U.S. Supreme
Court, June 24, 1991 501 U.S.797 111 S.Ct. m,2590
90-68; and Kernan v. Hinojosa, U.S. Supreme Court,
May16, 2016 136 S.Ct. 16032016WL2842454 15-833.
(b) Rule in favor of Appellant.
IX. RELIEF REQUESTS
Appellant with her thousands supporters
(Appendix.3) respectfully requests Honorable
Judges to follow U.S. Supreme Court two identically
ruled, consistently followed about 12 U.S. Court of
Appeals
and
22
U.S.
District
Courts,
Authority.(a),that: “Appellees’ silence implies
their consent, not the opposite, courts
generally behave accordingly, affirming
without further discussion when they agree,
not when they disagree,” to rule in favor of

89a

Appellant on:
IX.(a) District court erred in:
(a)(1) District court judge erred in “concealed or
removed physical
evidences”, which reasonably jury could find
Appellees unlawfully acted. (MD Criminal Law, § 9307; 18 U.S.C.A. § 1512,(b)(2)(B)(ii), Authority!!
(a)(2) District court erred in depriving Appellant’s
trial by jury” (U.S.
constitutional “rights of
Constitution, Amendment VII), because of her race,
sex, national origin, age, disability;
(a)(3) District court erred in dismissing
Appellant’s “most (except one) and important claims
before any jurisdictional discovery were take”, and
this honorable court generally reversed it in such
situation;
(a)(4) District court erred in failure to provide
reasonable accommodations to
Appellant
with
“impaired hearing or communication disabilities” at
court’s teleconference, as regulated in “guide to
judiciary policy”; and caused injures to her;
District court erred in failure of following
(a)(5)
McDonnell
U.S. Supreme Court established
Douglas burden shift frameworks, disparately and
adversely treated and ruled against Appellant, based
on her race, sex, national origin, age, disabilities;
(a)(6) District court erred in dismissing this suit;
(a)(7) And more, [FN1].
IX.(b) Appellees intentionally discriminated
and retaliated against Appellant, in their
following actions:
(b)(1) Appellees concluded Appellant disqualifying
for GS-15 position [FN5];

90a

(b)(2) Appellees
“willfully caused bodily
injury to Appellant” (18 U.S.C.A § 249) at work
place;
Appellees knowingly “created many
(b)(3)
substantial risks of death
... to Appellant”
at
work place (MD Criminal Law § 3-204);
(b)(4) Appellees deprived Appellant’s constitutional
rights of life; •
(b)(5) Appellees denied Appellant’s within grade
GS-15 step increase;
(b) (6) and more [FN1].
IX(c) Further court proceedings in favor of
Appellant:
Based on Appellees consent and do not
oppose facts, laws, and conclusions of they acted
unlawfully, Appellant requests a Jury trail for jury
to decide the compensations, including the
money amounts, for Appellees compensate
Appellant.Appellees: consent _, oppose_, unknown_
IX(d) Other further court proceedings.
X.
WHETHER DISTRICT COURT JUDGE
ERRED IN HIS PATTERN OF CONCEALING
FACTS, WHEN RULED ON
DISCRIMINATIONS, ESPECIALLY FOR
ASIAN AMERICAN COMPLAINANTS?
Appellees: consent _, oppose_, unknown_
Above facts and laws should suffice for
Honorable Judges to rule in favor of Appellant,
based on Appellees consented and do not oppose all
facts, laws, and conclusions, and U.S. Supreme
Court and many court ruled in Authority.(a)).
Appellees: consent _, oppose_, unknown_

91a

Additional
to
that, Appellant would
bring an issue for Honorable Judges to review, that:
Whether district court judge erred in his pattern of
concealing facts, when ruled on discriminations,
especially for Asian American complainants ?
Appellees: consent _, oppose_, unknown_
X.(I) FACTS
Appellant tried and searched, but failed
(I).(a)
to find one case which the district court judge ruled
in favor of Asian American plaintiffs for
discrimination complaints.
Appellees: consent _, oppose_, unknown_
(I).(b) Pattern of district court judge
concealing
facts,
when
ruled
on
discriminations, especially for Asian American
complainants.
(b)(1) Case 1 showed the pattern of Judge
James E. Boasberg is Appellant’s suit discrimination complaints.
Appellant’s suit, see above stated and evidenced
facts and conclusions.
(b)(2) Case 2 showed the pattern of James E.
Boasberg is Wheeler V. Georgetown University
Hospital - discrimination complain.
(2) (A) Brief of Plaintiff-Appellant
“Patricia Wheeler, Plaintiff-Appellant,
V.

Georgetown University Hospital, DefendantAppellee.
No. 14-7108.
July 31, 2015.
On Appeal from the United States District Court for

X

92a

in Case No. l:10-cvthe District of Columbia
01441-JEB (Hon. James E. Boasberg, Judge)
“ISSUES PRESENTED FOR REVIEW
f
I. Whether the District Court erred in granting
summary judgment by improperly weighing or
disregarding admissible evidence from which a
reasonable jury could have inferred that the
Appellee’s purported reasons for its decisions were
pretextual and that the real motivation for its
decisions was race discrimination.
II. ...
III. Whether the District Court erred in not viewing
the evidence in a light most favorable to the
Appellant.”
(2)(B) Honorable Judges of this court revered
district court judge James E. Boasberg’s
rulings:
Wheeler v. Georgetown University Hospital
United States Court of Appeals, District of Columbia
Circuit. February 12, 2016 812 F.3d 1109 2016 WL
556705 14-7108
Background: African-American nurse brought action
against university hospital alleging that she was
terminated because of her race, in violation of Title
VII. Hospital moved for summary judgment. The
United States District Court for the District of
Columbia, James E. Boasberg, J., 52 F.Supp.3d 40,
granted motion. Nurse appealed.
Holding: The Court of Appeals held that genuine
of material
fact existed
as
to
issue
whether hospital's proffered reason for terminating
nurse was pretext for racial discrimination.
Reversed and remanded.”

93a

oppose_,
consent
Appellees:
unknown_
(b)(3) Case 3 showed the pattern of James E.
Boasberg is Harris v. District of jGolpnitjia Water,
and Sewer Authority — discrimination complain.
(3)(A) Brief of Plaintiff-Appellant
“United States Court of Appeals,

District ofliliH Circuit.
Anthony S. Harris, Appellant,
v.

mm, ofimi m, and HiHAuthority

Appellee.
No. 13-7043.
May 29, 2014.
Appeal from the United States District Court for the
District of Columbia
Order Granting Motion to Dismiss l:12-cv-01453
Honorable James E. Boasberg
“B. Statement of Issues Presented for Review
The only issue presented for review is whether
the District Court erred in granting judgment on the
pleadings to Defendant-Appellee District of
Columbia Watlr and jpS Authority, thereby
dismissing Mr. Harris’ Federal claims for retaliation
discrimination.”
(3)(B) Honorable Judges of this court revered
district court judge James E. Boasberg*s
rulings:
Harris v. District of Columbia Water and Sewer
Authority

£

.(■

s
. 1
't
I

■

i

94a

United States Court of
Appeals, District of
Columbia Circuit. June 23, 2015 791 F.3d 65 2015
WL 3851919 13-7043 791 F.3d 65
No. 13-7043.
Argued Nov. 12, 2014.Decided June 23, 2015.
“Synopsis
Background: Employee brought action against his
employer,
former
the District of Columbia Water and Sewer Authority
(WASA), alleging, inter alia, that he was terminated
in retaliation for opposing racially discriminatory
employment practices in violation of § 1981, Title
VII, and District of Columbia law. Former employer
filed motion to dismiss. The United States District
Court
for
the District of Columbia, James
E.
Boasberg, J., 922 F.Supp.2d 30, granted
motion, and employee appealed.
Holding: The Court of Appeals, Garland, Chief
Judge, held that employee's complaint alleged
sufficient facts going to causation to render his
Title VII retaliation claim plausible.
Reversed.”
Appellees: consent _, oppose_, unknown_
(b)(4) Case 4 showed the pattern of James E.
Boasberg is:
Arriva Medical LLC v. United States Department
of Health and Human Services, United States
District Court, District of Columbia. March 09,
2017 239 F.Supp.3d 2662017 WL 943904 CV 162521-JEB)
“Synopsis
...The United States District Court for the District of
Columbia,

95a

J., 854 F.Supp.2d 83,
James E. Boasberg,
denied contractors' motion for preliminary
injunction, and, 901 F.Supp.2d 101, granted FEC's
motion for summary judgment. On appeal, the
Court of Appeals, 717 F.3d 1007, vacated
district court's orders and remanded case to
make
district
court
to
appropriate findings of fact and certify those facts
and relevant constitutional questions to Court of
Appeals. Appellees: consent _, oppose_, unknown_
X.(b) CONCLUSIONS
(1) Facts showed that district court judge James E.
Boasberg’s pattern of concealing facts, when ruled on
discriminations, especially for Asian Americans.
Appellees: consent _, oppose_, unknown_
(2) When Honorable Judges of this court
reversed similar district court Judge James E.
Boasberg’s dismissing, Appellant -- and Asian
American
woman and victim of Appellees’ intentional
discriminations and retaliations,
respectfully
requests honorable Judges to rule in her favor also,
as they ruled in above cases (2,3,4) by reversed same
district court judge Boasberg’s dismissing.
Appellees: consent _, oppose_, unknown_
Respectfully submitted
Qihui Huang, pro se, Appellant, _/s/_
P.O.Box 34014, Bethesda MD 20827
Phone: 240-423-0406;
Date: June 28, 2018 Email: qhh@hotmail.com
XI. CERTIFICATE WORD, PAGES, AND
SERVICE

96a

knowledge, there are
Based on Appellant’s
about 4,720 words and 25 pages, and met
re gulations of Local Rule s.
Appellant certifies that the copy of the above
document is served to Appellees through their
attorneys by Court’s Electronics Filing Computer
System, on June, 28 2018. Qihui Huang __ /s/_
Affidavit
Appellant, undersigned, states that under the
penalty of perjury, her
statements here are true,
based on her best memories, knowledge, and
Qihui Huang
experience.
More statements: 8 , 9.
/s/

8

Appellees did not oppose Appellant recently filed all about
12 motions on different facts. Appellant thinks they will oppose
this Brief, as their lawyer said, but she does not know if they
will oppose or not.
9 Appellees is very sick and she submitted doctor’s note to
this honorable court. She filed motion for extension to fie brief,
but did not receive any ruling on it. Appellant does not want to
miss court scheduled deadline. She worked on the brief, under
the status of she is very sick.

97a

APPENDIX H (App. H)
Following is a list of organizations, which
support and concern Qihui Huang’s lawsuit against
FCC Chairman’s discriminations, retaliations, and
more unlawful actions. Herein, [N] is for national,
[O] is for organization, [I] is individual head of
organization, [M] is media, [W] is for Wechat, [C] is
for company.__________________________________
Website
Estimate
No Names of
organizations
Persons /
Members
Numbers
1

2

President,
Attorney, and
Chair of
National
Council of
Chinese
Americans
(NCCA)

http ://www. myn > 3,000,
cca.org
[N,I],

Director and
Executive
Director of the

http://www.ucop > 5,000,
o.org
[N,I]. It
leads and

r'

98a

Union of
Chinese
American
Professional
Organizations
(UCOPO)

represents
about 28
organization
s.

3

Chairman,
Association of
Greater
Washington DC
Chinese
American
Organizations

> 3,000 [I]

4

Chairman,
Minnesota
Chinese
American
Association

> 2,500 [I]

5

Northwestern http ://www.ncaa > 1,650, [O]
gw.org
Chinese
American
Association of
Greater
Washington DC

6

National
American
Gansu
Friendship
Association

http ://www. gans > 1,400,
[N,0]
udc.org

7

American
Gansu
Friendship

http ://www. gans > 750, [O]
udc.org

99a

Association of
Great
Washington DC
8

http://ne wworldt > 850, [0]
ShangHai
imes.us/shangha
Chinese
inesedc/
American
Association of
Great
Washington DC

9

Shaanxi
Chinese
American
Association of
Great
Washington DC

> 650, [0]

http ://www/cast > 250, [O]
10 President,
dc.org
Chinese
Association for
Science &
Technology,
USA
Washington-DC
Chapter (CASTDC) & Network
Society (CASTNS)
11 China Overseas http://www.coea. > 200, [N,0]
org.cn
Exchange
Association
12 American
http://www.acsd > 330, [0]
Chinese School c.org
13 President of

> 250, [I]

,

-

100a

Coalition of
Asian Pacific
Americans of
Virginia

i

14 President of
Asian Pacific
American
Veterans
Association

> 120, [I]

15 United Nations
Woman
Development &
Promotion
Committee

> 170, [O]

16 World Harmony
Alliance

> 180, [O]

17 United Nations
Painting;

> 140, [O]

18 UN World
Religious
Harmony
Foundation;

> 150, [O]

19 The Committee
of Advocacy and
training in UN
Procurement

> 150, [O]

20 Republican

> 240, [O]

Party Asian
American New
York
Association

101a

Headquarter.
21 US-Chinese
Education and
Cultural
Exchange, Inc.

> 10

22 Multiple

>5, [M]

Owners,
Managers,
and/or
Journalists
23 Greater

>420, [0]

Philadelphia
Chinese
Association of
Protecting
Rights
24 MDGOP-APA
council

> 150, [O]

25 U.S. Suits for
Protecting
Rights

> 15, [W]

26 Employed

4, [W]

Women for
Equal Rights
27 1441

> 800, [W]

Manufacture dHome Residents
Association
28 Ace Mortgage

Corporation

> 10 [C]

102a

29 Aeda Realty
30 www.2us41ove.c media

11 [C]
>5 [M]

om
> 50 [C],
Medium
31 Alliance
Cultural Media, www.acmedia36 >195,000
subscribers
O.com
Inc.
To About 31

tal organizations

> 22,455
persons, and
medium has
more than
195,000
subscribers.

103a

Appendix I

(App.
I) Constitutions and
Statutes Involved

App. H.l -- United States Constitution, Amendment
1, provides, in relevant part: “Congress shall make
no law respecting an establishment of ... prohibiting
the free exercise thereof; or ..., and to petition the
Government for a redress of grievances.”

r

App. H.2 -- United States Constitution, Amendment
5, provides, in relevant part: “No person shall be
held to ..., nor be deprived of life, liberty, or
property, without due process of law;
App. H.3 ■■ United States Constitution, Amendment
14, provides, in relevant part: “No state . . . shall
deprive any person of life, liberty, or property,
without due process of law; nor deny to any person
within its jurisdiction the equal protection of the
laws”.
App. H.4 -- 18 U.S. Code § 249. Hate crime acts,
provides, in relevant part: “(a)In General.— (1)
Offenses involving actual or perceived race, ..., or
national origin.—Whoever, whether or not acting
under color of law, willfully causes bodily injury to
any person or, ... attempts to cause bodily injury to
any person, because of the actual or perceived race,
color, religion, or national origin of any person—”.
App. H.5-- Maryland Criminal Law, §3-204.
Reckless endangerment, (a) Prohibited. - A person
may not recklessly: (1) engage in conduct that
creates a substantial risk of death or serious

104a

physical
injury
to
another; or...”
APP. H.6 - 42 U.S.C. § 2000 e-2. Unlawful
employment practices “(a) Employer practices
“It shall be an unlawful employment practice for
an employer— because of such individual’s race,
color, religion, sex, or national origin; or ...”
App. H.7 “... silence implies consent, not the
opposite—and courts generally behave accordingly,
affirming without further discussion when they
agree, not when they disagree,” - rulings of U.S.
Supreme court in Kernan v. Hinojosa, 2016, 136
S.Ct. 1603; Ylst v. Nunnemaker, 1991 501 U.S. 797
111 S.Ct. 2590; and about 33 U.S. courts cited and
complied it.

